<html>
<title> - ADVANCING THE FEDERAL–TRIBAL RELATIONSHIP THROUGH SELF–GOVERNANCE AND SELF–DETERMINATION</title>
<body><pre>[Senate Hearing 112-713]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-713

 ADVANCING THE FEDERAL-TRIBAL RELATIONSHIP THROUGH SELF-GOVERNANCE AND 
                                 SELF-
                             DETERMINATION

=======================================================================



                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2012

                               __________

         Printed for the use of the Committee on Indian Affairs


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2012...............................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................     3
Statement of Senator Murkowski...................................    34

                               Witnesses

Erlich, Ian, President/CEO, Maniilaq Association.................    12
    Prepared statement...........................................    15
Head, Charles, Secretary of State, Cherokee Nation...............    19
    Prepared statement...........................................    20
Kalipi, D. Noelani, President, TiLeaf Group......................    26
    Prepared statement...........................................    28
Roberts, Lawrence, Deputy Assistant Secretary, Indian Affairs, 
  U.S. Department of the Interior................................     4
    Prepared statement...........................................     6

                                Appendix

Allen, Hon. W. Ron, Tribal Chairman/CEO, Jamestown S'Klallam 
  Tribe and Chairman, Self-Governance Advisory Committee, 
  Department of the Interior, prepared statement.................    41
Masten, Hon. Leonard, Chairman, Hoopa Valley Tribe, prepared 
  statement......................................................    42
Moyle, Hon. Alvin, Chairman, Fallon Paiute Shoshone Tribe, 
  prepared statement.............................................    48

 
                      ADVANCING THE FEDERAL-TRIBAL



                RELATIONSHIP THROUGH SELF-GOVERNANCE AND



                           SELF-DETERMINATION

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2012


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:44 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. I call this hearing of the Committee on 
Indian Affairs to order.
    Aloha and thank you all for being here today for the 
Committee's Oversight Hearing on Advancing the Federal-Tribal 
Relationship Through Self-Governance and Self-Determination.
    Before we begin, I just want to take note that we have some 
new artwork in the Committee room. I hope that you took time to 
scan the room and see the art pieces that we have. I am so 
pleased with the way that new art helps us visually represent 
the diversity of Native peoples with whom the Federal 
Government has trust responsibilities and for whom this 
Committee works every day.
    I want to offer my mahalo, my thanks, to the Smithsonian 
National Museum of the American Indian, the Council on Native 
Hawaiian Advancement, and [phrase in Native tongue] for loaning 
the Committee the beautiful artwork and I hope that you will 
take time to enjoy seeing them.
    From the Constitution, it is clear our Founding Fathers 
understood the sovereign authority of Tribal nations and their 
governments. It is also clear the Tribal government came in a 
diversity of forms. The broad terms Indian and Tribes 
represented a diversity of people with unique cultures, 
languages and traditions indigenous to the United States. And 
as I mentioned yesterday, all of us here in this room and the 
Committee staff, all will have to continue to educate our 
colleagues here in the Congress to know as much as they can 
about our indigenous people.
    From our earliest days as a Nation, we made treaties with 
the Indian Tribes. This Country made treaties with the Indian 
Tribes, just as we did with a diversity of foreign nations, 
governing issues such as trade, peace and other relations. With 
our westward expansion during the 19th Century, Federal 
objectives turned to manifest destiny and Federal policies 
toward our Country's first peoples changed over time. The 
movement to remove the Native peoples began.
    The United States again relied on treaties with the Tribes 
to facilitate the acquisition of Native lands and often 
promised in exchange to provide for Indian health, education, 
welfare and housing, and a guaranteed right to self-governance. 
The policy errors that developed from then through the first 
half of the 20th Century were marked by programs designed to 
force Natives to abandon their traditional ways and assimilate 
into mainstream American norms. These programs intended to 
strip Native Americans of their languages, break up Tribal 
bonds and land bases, and encourage Indians to focus on their 
identities as individuals rather than members of Tribal 
communities.
    These policies and program strategies were applied to all 
indigenous peoples throughout the Country, on the continent, 
across the ocean and in my own home of Hawaii. And I must tell 
you, because of my age and, when I was a very young man, this 
happened to me, too, because, bless my mom and dad, I called 
them ma and pa, they wanted the best for us. And so, even at 
home, they spoke the language. But when it came to us they 
said, you do not speak Hawaiian. You speak English. And the 
reason was they wanted us to learn as much English as we could 
so that we could progress through our own lifetime and give 
service to people in the Nation.
    And so for me, at that time, as I look back, they were 
doing that to try to help us. And yet, I know enough now, and 
we all do now, that I could have learned that language as well 
as English and not banned the use of our cultural language, in 
this case for English. But that happened to me, too.
    So, I am passing on some history that I have gained 
throughout the years and through my work here in the Congress. 
The policy of banning Native language use in schools was 
adopted by the Territory of Hawaii and we were discouraged from 
speaking Hawaiian just as the American Indians and the Alaska 
Natives were punished for using their languages in school.
    The policy of allotting 160-acre parcels of land to 
individual Indians began in 1887 with the enactment of the 
Dawes Act as a way to break up the reservations and communal 
lifestyles instead of encouraging Indians to own family farms. 
In 1906, this policy was expanded to Native Alaskans. And in 
1921, it was applied to Native Hawaiians, I was born in 1924, 
with the passage of the Hawaiian Homes Commission Act.
    Overall, these policies of assimilation failed to meet the 
Federal trust responsibility to Native peoples and, in fact, 
often worsened the socioeconomic conditions of Native peoples 
and their communities.
    In 1968 and also in 1970, Presidents Johnson and Nixon 
respectively introduced policies supporting Tribal self-
determination and called for a shift in responsibility of 
public programs to Tribal governments. In 1975, Congress 
enacted the Indian Self-Determination and Education Assistance 
Act enabling Tribes to contract the BIA and IHS to administer 
Federal programs. Later legislation allowed Tribes greater 
flexibility in designing and operating Indian programs and 
about 60 percent of the Tribes have self-governance compacts 
with BIA, IHS or both of them today.
    Federal reaffirmation of Tribal sovereignty through self-
governance programs has enabled the Tribes to generate revenues 
to their own business enterprises, operate court and effective 
law enforcement systems, and design school curricula to better 
meet the needs of Native students. Tribes have done this 
without forced assimilation to mainstream American norms.
    And this Federal focus on self-determination and self-
governance has proven to be the only Federal policy that has 
worked for Native communities. Studies show that self-
determination policies have enabled Indian Tribes to build 
strong economies, reverse decades of language loss, and tailor 
programs and services to better meet the needs of their people.
    So, my top legislative priority today, the Native Hawaiian 
Government Reorganization Act, ensures parity in policy for all 
federally-recognized Native people. It means the Native 
Hawaiian people will have full access to the prevailing policy 
on self-determination and finally be able to exercise their 
right to self-governance. It is time for the United States to 
give my people access to its best policies and Native peoples, 
not just the legacies of the worst ones.
    So, I want to thank all of the witnesses in advance for 
being here today to share with us your perspective of self-
determination and self-governance. I thought I would bring back 
a little history this morning to tell you about how these have 
come about for me as I see it in our history and to try to get 
to what I call a model type of self-determination and self-
governance entity that will continue to help the indigenous 
peoples of this Country.
    Thank you so much for listening. But I thought this would 
be the basis of our discussions today as well as hearing from 
our witnesses.
    Now, at this I would like to ask any members for any of 
their opening statements on this hearing.
    Senator Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman, for holding this 
very important hearing today. I appreciate your leadership in 
advancing the Federal and Tribal relationship. Your efforts 
have raised the level of dialogue on Native American issues and 
you have set the course for continued improvements in these 
communities.
    Congress passed the Indian Self-Determination and Education 
Act, as we have mentioned, as you talked about so eloquently in 
this history, in 1975 to set forth a new dynamic in the 
Federal-Tribal relationship. Since then, we have seen many 
benefits for Indian communities. For example, Tribes can 
provide more effective delivery of services and programs.
    But as we know, there are also improvements that can and 
should be made in both the Federal-Tribal relationship and in 
the delivery of services. So I look forward to hearing from the 
witnesses on where we should go from here.
    I would like to mention one thing, Mr. Chairman. It comes 
to mind since we have a witness today on behalf of the Cherokee 
Nation. We all know that last Sunday four Americans were killed 
in Afghanistan as a result of an insider attack against our 
troops. One of those Americans was a young man from Claremore, 
Oklahoma, John Ross Townsend who, I understand, was a citizen 
of the Cherokee Nation.
    We should not forget for a moment that the men and women of 
our military are serving in very dangerous parts of the world 
to protect the freedoms we all enjoy. Private First Class 
Townsend made the ultimate sacrifice for the rest of us and we 
owe him and his family a great, great debt.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Barrasso. We 
certainly want to pass on mahalo to their families for serving 
our Country in that way and with their lives.
    Senator Udall, do you have anything to say?
    Senator Udall. No.
    Senator Akaka. Thank you very much.
    As Chairman, it is my goal to ensure that we hear from all 
who want to contribute to the discussion. The hearing record is 
open for two weeks from today and I encourage everyone to 
submit comments through written testimony.
    I want to remind the witnesses to please limit your 
testimony to five minutes today. Serving on our first panel is 
Mr. Lawrence Roberts who is the Deputy Assistant Secretary of 
Indian Affairs at the Department of Interior. I want to welcome 
you, Mr. Roberts, and ask you to proceed with your testimony.

  STATEMENT OF LAWRENCE ROBERTS, DEPUTY ASSISTANT SECRETARY, 
            INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Roberts. Good afternoon, Chairman Akaka, Vice Chairman 
Barrasso, Senator Udall, Members of the Committee. Thank you 
for the opportunity to appear before you today at the Oversight 
Hearing on Indian Self-Determination and Self-Governance.
    I am the Deputy Assistant Secretary for Indian Affairs and 
a member of the Oneida Nation of Wisconsin. With me today is 
Sharee Freeman, the Director of the Office of Self-Governance, 
and Ms. Hankie Ortiz, Deputy Director of Indian Services, 
Bureau of Indian Affairs.
    President Obama recognizes that Indian Tribes are 
sovereign, self-governing political entities that enjoy a 
government-to-government relationship with the United States. 
Secretary Salazar, too, is a strong supporter of the principles 
of tribal self-determination and self-governance and is 
committed to working to fully enable these important policies.
    This Administration believes that Tribal leadership is 
critical in addressing and solving issues in Indian Country and 
that Tribes must have a voice in programs and Government 
efforts which are important to the lives of Tribal citizens. In 
the spirit of our strong commitment, we offer our views on the 
tangible progress achieved under the Indian Self-Determination 
and Education Assistance Act.
    The Bureau of Indian Affairs (BIA) has a long history of 
entering into contracts with Tribes to operate BIA programs. 
Prior to the passage of the Indian Self-Determination and 
Education Assistance Act, the BIA contracted with Tribes 
utilizing authorities provided under the Buy Indian Act. 
However, the Buy Indian Act did not allow the BIA to work 
directly with a specific Tribe to develop a contract proposal, 
plan the operation of a program, and negotiate the specific 
contractual agreements.
    In 1975, Congress passed the Indian Self-Determination and 
Education Assistance Act, a law that has proven to be one of 
the most significant pieces of Federal Indian legislation. 
Under the Act, Tribes may choose to have the BIA provide direct 
services or the Tribe may operate BIA programs under a Title I 
Contract. From its inception in 1975 through 1988, only the BIA 
and the Indian Health Service were authorized to utilize the 
act. During this time frame, all self-determination contracts 
were considered procurement agreements and construction 
agreements were not authorized.
    In 1988, the Act was amended to authorize use by all 
bureaus and offices within the Department. The 1988 amendment 
authorized construction contracts and provided that non-
construction contracts were no longer to be construed as 
procurement contracts. Title III, the Tribal Self-Governance 
Demonstration Project, was also added as part of the 1988 
amendments.
    In 1994, Congress made additional significant amendments to 
the Act. Among other things, the 1994 amendments added Title IV 
establishing self-governance as a permanent option for Tribes. 
These amendments authorized Tribes that meet certain criteria 
to negotiate funding agreements with the department for 
programs, services, functions or activities administered by the 
bureau and within certain parameters by other bureaus in the 
department.
    Since its enactment in 1975, Tribal participation in all 
aspects of self-determination contracting and self-governance 
continues to expand. In Fiscal Year 2012, Indian Affairs funded 
approximately $800 million to over 500 Tribes through self-
determination contracts. Under these agreements, Tribes provide 
a wide range of programs and services to their members such as 
law enforcement, education, road maintenance and road 
construction, forestry, fisheries, real estate services, 
appraisals and probates.
    Programs once operated by a Tribe under self-determination 
contracts and associated funding are often rolled into self-
governance funding agreements. Under self-governance, Tribes 
have the authority to redesign or consolidate bureau programs, 
services, functions or activities other than construction. As a 
result, those funds can be used with relative flexibility to 
address each Tribe's unique situation.
    The number of Tribes participating in self-governance has 
grown from 7 Tribes in 1991 to 251 Tribes today. These 251 
Tribes are currently funded through 103 self-governance funding 
agreements. The amount of funding transferred to Tribes through 
self-governance funding agreements has grown from $27 million 
in 1991 to $436 million in 2011.
    Ultimately under Tribal self-governance each individual 
Tribe determines the number and type of programs the Tribe will 
operate, as well as those programs that the Federal Government 
will retain. Control and flexibility in the use of funds to 
meet Tribal needs promotes more efficient and effective 
governance. In fact, numerous self-governance Tribes have been 
accorded high honors from the Harvard Project on American 
Indian Economic Development for Good Governance.
    We appreciate the ways that self-governance contracts and 
self-governance funding agreements under the act have helped to 
strengthen the government-to-government relationship with 
Tribes. Indian Tribes have been good managers of the programs 
they have administered under the act. In fact, many times the 
Indian Tribes add their own resources to the programs.
    We support appropriate efforts to strengthen the existing 
act to make it work better for the Federal Government and for 
Tribes.
    I appreciate the opportunity to testify before you today 
and I will be happy to answer any questions you may have.
    [The prepared statement of Mr. Roberts follows:]

  Prepared Statement of Lawrence Roberts, Deputy Assistant Secretary, 
            Indian Affairs, U.S. Department of the Interior
    Good afternoon, Chairman Akaka, Vice Chairman Barrasso, and Members 
of the Committee. Thank you for the opportunity to appear before you 
today at this Oversight Hearing on Indian Self-Determination and Self-
Governance. President Obama recognizes that federally recognized Indian 
tribes are sovereign, self-governing political entities with a 
government-to-government relationship with the United States 
government, as provided in the U.S. Constitution, treaties, court 
decisions, and federal statutes. Secretary Salazar too is a strong 
supporter of the principles of tribal self-determination and self-
governance and is committed to enable these important policies.
    This Administration supports tribal self-determination. 
Furthermore, we believe that tribal leadership is critical in facing 
and solving the problems of today, and that Native Americans must have 
a voice in programs and government efforts which are important to their 
lives. During the opening remarks delivered by President Obama at the 
Tribal Nations Conference held on November 5, 2009, the President 
affirmed that he is ``absolutely committed to moving forward with 
[tribes] and forging a new and better future together. It's a 
commitment that's deeper than our unique nation-to-nation relationship. 
It's a commitment to getting this relationship right, so that you can 
be full partners in the American economy, and so your children and your 
grandchildren can have an equal shot at pursuing the American Dream.'' 
In the spirit of our strong commitment, we offer our views on the 
tangible progress achieved under the Indian Self-Determination and 
Education Assistance Act (ISDEAA), 25 U.S.C. 450 et seq.
Background
    The ISDEAA is a historic Act because it requires the Department of 
the Interior and the Department of Health and Human Services to 
transfer various federal Indian programs to tribes, giving them the 
same funds the agency would have spent on those programs. In 1975, 
Congress passed and President Ford signed into law the ISDEAA, which is 
one of the most significant pieces of Indian legislation enacted into 
law. Under the Act, federally recognized tribes may choose to have the 
Bureau of Indian Affairs (BIA) provide direct services or operate BIA 
programs under an ISDEAA Title I Contract. The ISDEAA established a new 
methodology for Indian tribes and the Federal Government to work 
together to accomplish the intent of the President and the Congress in 
establishing and funding the various Indian programs administered 
through the Department of the Interior (DOI) and, specifically, the 
Bureau of Indian Affairs.
    Since 1975, the ISDEAA has been amended several times; three of the 
most significant amendments are: P.L. 100-472 (October 5, 1988), 
commonly referred to as the 1988 Amendments; P.L. 103-413 (October 25, 
1994), commonly referred to as the 1994 Amendments; and P.L. 106-260 
(August 18, 2000), commonly referred to as the 2000 Amendments. Title I 
of the ISDEAA is the Indian Self-Determination Act, Title II is the 
Indian Education Assistance Act, Title III (which has been repealed) 
was the Tribal Self-Governance Demonstration Act, Title IV is the 
Tribal Self-Governance Act (DOI), Title V is Tribal Self-Governance 
(Department of Health and Human Services [DHHS]), and Title VI is 
Tribal Self-Governance (DHHS--Feasibility Study).
    The BIA has a long history of entering into contractual agreements 
with Indian tribes to operate BIA programs. Prior to the passage of the 
ISDEAA the BIA was contracting with Indian tribes utilizing the 
authorities provided through the Buy Indian Act (25 U.S.C. 47). 
However, the Buy Indian Act is a procurement act that did not allow the 
BIA to work directly with a specific Indian tribe to develop a contract 
proposal, plan the operation of a program, and negotiate a specific 
contractual agreement.
    From its inception in 1975 through 1988, only the BIA within the 
Department and the Indian Health Service (IHS) within the Department of 
Health and Human Services (DHHS) were authorized to utilize the ISDEAA. 
During this timeframe, all Self-Determination contracts were considered 
procurement agreements, awarded by Warranted Contracting Officers, and 
construction contracts were not authorized. In 1988, P.L. 100-472 was 
enacted and expanded the ISDEAA to authorize its use by all Bureaus and 
Offices within the Department. The 1988 Amendments authorized 
construction contracts and provided that non-construction ISDEAA 
contracts were no longer to be construed as procurement contracts. 
Title III, the Tribal Self-Governance Demonstration Project, was also 
added to ISDEAA as part of the 1988 Amendments.
    In 1994, P.L. 103-413 was enacted and made additional significant 
amendments to the Act. P.L. 103-413 made clear that all self-
determination contracts, including construction contracts, were not to 
be construed as procurement contracts. The 1994 Amendments also added 
Title IV, thus establishing Self-Governance as a permanent option for 
tribes. These amendments, in section 403(b), authorized federally 
recognized tribes that meet criteria established for the Self-
Governance Program to negotiate funding agreements with the Department 
for programs, services, functions, or activities (PSFAs) administered 
by the BIA and, within certain parameters, by other bureaus of the 
Department.
    The ISDEAA allows federally recognized Indian tribes, tribal 
organizations, and tribal consortiums to assume programs administered 
by Department bureaus and offices other than the BIA, subject to 
negotiations, when the programs are available to Indian tribes or 
Indians because of their status as Indians. The ISDEAA also provides 
the Secretary with discretion to include other programs administered by 
the Secretary which are of special geographic, historical, or cultural 
significance to the participating self-governance tribe requesting a 
funding agreement. The ISDEAA was intended to strengthen the 
government-to-government relationship between Indian tribes and the 
Federal Government by putting in place a process and a procedure to 
ensure that Indian tribes and the Federal Government accomplish the 
goals and objectives of the tribes and ensure that Indian people had a 
voice in the planning, design, and implementation of programs and 
services for the benefit of Indian people.
    Tribal participation in all aspects of self-determination 
contracting and self-governance continues to expand. In FY 2012, Indian 
Affairs funded approximately $800 million to over 500 tribes through 
Title I ISDEAA Contracts.
    These self-determination contracts and self-governance funding 
agreements allow federally recognized tribes to plan, conduct, 
consolidate, and administer federal PSFAs according to priorities 
established by tribal governments. Under these agreements, tribes 
provide a wide range of programs and services to their members such as 
law enforcement, education, road maintenance and road construction, 
forestry, fisheries, agriculture, and other natural resource programs, 
rights protection and trust related programs, such as real estate 
services, appraisals, probates, and welfare assistance and Indian child 
welfare assistance. Under these contracts and funding agreements, 
tribes have the authority to redesign or consolidate BIA PSFAs, other 
than construction. In addition, tribes are allowed to carry over 
unspent funds into the next fiscal year without Secretarial approval. 
As a result, funds can be used with relative flexibility to address 
each tribe's unique condition, provided it is for the same activity 
that the funds were originally contracted for. Tribes are subject to 
annual on-site visits by Department staff to monitor performance. 
Tribes are also subject to annual audits pursuant to the Single Audit 
Act Amendments (P.L. 104-156) and OMB Circular A-133. In addition, most 
tribes have included language in their contracts and funding agreements 
indicating that they will work with the Department to provide 
applicable data and information pursuant to the Government Performance 
and Results Act of 1993.
Self-Governance Compacts and Funding Agreements
    In 1988, Congress added another option to the ISDEAA by 
establishing a demonstration program allowing federally recognized 
tribes to operate BIA programs under a self-governance funding 
agreement. The origin of this option was an oversight hearing held in 
1987 by Chairman Yates. At the hearing Chairman Yates asked if there 
was a better way to conduct business in Indian country. The tribal 
leaders attending the hearing proposed the concept of identifying and 
transferring the tribe's share of the federal budget to the tribe so it 
could govern itself without federal intervention. Chairman Yates asked 
the federal and tribal leaders attending the hearing to work together 
to suggest how to implement the tribal concept.
    Congress enacted P.L. 100-472, which authorized the Secretary of 
the Interior to negotiate self-governance compacts with up to 20 
tribes. Title III was later amended to include Indian Health Service 
(IHS) programs. Permanent programs were enacted as Title IV for the 
Department's Indian programs and Title V for IHS programs.
    The number of tribes participating in the DOI self-governance 
program has grown from seven tribes in FY 1991 to 251 tribes in FY 
2012. These 251 tribes are currently funded through 103 self-governance 
funding agreements. The amount of funding transferred to tribes through 
self-governance funding agreements has grown from $27 million in FY 
1991 to $436 million in FY 2011. Given that the distribution of FY 2012 
funding is ongoing and set on a two-year funding cycle, the total 
amount distributed to self-governance tribes will be better known at 
the end of FY 2013. In addition to BIA funds included in the funding 
agreements, funds from other federal programs allocated or awarded to 
self-governance tribes may be transferred with the ISDEAA funding 
agreement. This includes Indian Reservation Roads funds from the 
Department of Transportation and Indian employment training and related 
services funds pursuant to P.L. 102-477, from the Department of Health 
and Human Services Temporary Assistance for Needy Families (TANF), 
Child Care, and Native Employment Works (NEW) funds as well as 
Department of Labor, Workforce Investment Act (WIA) funds.
    The DOI Office of Self-Governance (OSG) administers the Self-
Governance Program with respect to PSFAs that would otherwise be 
performed by BIA The OSG is located within the Office of the Assistant 
Secretary--Indian Affairs (AS/IA). The Director of OSG reports to the 
Deputy Assistant Secretary--Policy and Economic Development within the 
Office of the Assistant Secretary--Indian Affairs. OSG was organized so 
as not to duplicate BIA field structure and operations.
    OSG administers the government-to-government relationships with a 
steadily increasing number of self-governance tribes, currently greater 
than 45 percent of all federally recognized tribes in Indian country. 
In recent years, there has been a steady increase of 2-3 new self-
governance tribes per year. OSG has a full range of responsibilities to 
self-governance tribes, including the following:

  <bullet> Assist in the growth of tribal self-governance by 
        disseminating information and developing education products;

  <bullet> Work with additional tribes to join the DOI tribal self-
        governance program;

  <bullet> Select tribes to participate in the DOI tribal self-
        governance program;

  <bullet> Negotiate self-governance compacts with new self-governance 
        tribes;

  <bullet> Conduct annual negotiations of funding agreements for BIA 
        programs with each self-governance tribe;

  <bullet> Provide financial management, budgeting, accounting, and 
        contracting services associated with the reprogramming and 
        transfer of funds from BIA programs and other federal programs 
        associated or awarded to self-governance tribes;

  <bullet> Schedule and reconcile fund transactions with program and 
        account managers in BIA and other federal agencies;

  <bullet> Satisfy the program accountability requirements of other 
        federal agencies, the BIA, and OSG;

  <bullet> Maintain financial integrity and accurate delivery and 
        reporting of all funds negotiated in self-governance funding 
        agreements;

  <bullet> Work with tribes, the Assistant Secretary's Office of 
        Internal Evaluation and Assessment, and the Department's 
        National Business Center to review and close all outstanding A-
        133 audits of self-governance tribes;

  <bullet> Consult with self-governance tribes to avoid and resolve 
        policy issues through the Self-Governance Advisory Committee, 
        which meets quarterly with the Assistant Secretary--Indian 
        Affairs;

  <bullet> Provide technical assistance on policy and program matters 
        affecting self-governance tribes;

  <bullet> Provide a central point for coordinating and resolving 
        policy and practical self-governance issues;

  <bullet> Work with self-governance tribes and federal policy 
        officials to implement tribal self-governance and resolve 
        issues or problems which arise;

  <bullet> Process requests for waivers of BIA regulations;

  <bullet> Prepare and submit an annual report to Congress with the 
        views of self-governance tribes;

  <bullet> Review legislative proposals that impact tribal programs; 
        and

  <bullet> Implement tribal self-governance by serving Indian 
        communities, including the development and implementation of 
        regulations, policies, and guidance in support of self-
        governance initiatives.

    Tribal self-governance was established with the purpose of reducing 
the number of staff and costs needed to administer the program so that 
more resources can be provided and used by self-governance tribes. The 
OSG has worked to gain efficiencies through a number of means. For 
example, OSG and self-governance tribes work together to integrate the 
negotiation and financial management functions through the development 
of a self-governance data base which provides transparency, accuracy, 
efficiency, and effectiveness of operation in the implementation of 
tribal self-governance. The database allows self-governance tribes to 
see their federal accounts in real-time as an Internet based system and 
minimizes OSG resources needed to perform some financial management 
functions.
    Another example of an initiative to gain efficiencies includes OSG 
working with tribes to develop a Tribal Data Exchange (TDE) system to 
automate the collection of information from tribes. DOI requires 
complex sets of data to support budget formulation, funds distribution, 
program management, and statutory and regulatory reporting processes. 
OSG and self-governance tribes often receive multiple requests for data 
that are repetitive, time consuming, and lack method or form of 
electronic collection. OSG, working with self-governance tribes on the 
Data Management Committee established by the Tribal Budget Advisory 
Committee (now called the Tribal Interior Budget Committee), reached 
out to contracting tribes as well as direct service tribes to develop a 
data collection and reporting tool that enables timely and accurate 
collection, analysis, reporting, and delivery of tribal data. This tool 
is designed to meet the internal and external data collection and 
reporting needs of tribes.
    OSG is working with self-governance tribes on a number of other 
initiatives. One is the development of a training curriculum for senior 
managers, new tribes, and an on-line product for federal employees. 
Another is the development of a funding methodology matrix study that 
involves the review of all BIA program funding and the methodologies 
used by the Bureau.
    Before entering into tribal self-governance, a tribe must provide 
authorization from its tribal governing body, complete a planning 
phase, and demonstrate, for the previous three fiscal years, financial 
stability and financial management capability as evidenced by having no 
material audit exceptions in its required annual audit of its self-
determination contracts. As a result, programs once operated by a tribe 
under self-determination contracts and associated funding are often 
rolled into self-governance funding agreements. Under tribal self-
governance, each individual tribe determines the relationship it wants 
to have with the Federal Government, including the number and type of 
programs the tribe will operate, as well as those programs that the 
Federal Government will retain.
    Under tribal self-governance, there is authority to negotiate 
annual and multi-year funding agreements and receive funding which 
enable tribes to plan, conduct, consolidate, and administer PSFAs for 
tribal citizens according to priorities established by their tribal 
governments. Unlike tribes that contract under Title I of the ISDEAA, 
self-governance tribes do not report to a federal contracting officer 
and do not operate under a scope of work. Tribal staff report to the 
tribal council who in turn report to tribal citizens. Self-governance 
tribes have reduced reporting requirements.
    Control and flexibility in the use of funds to meet tribal 
conditions, needs, and circumstances promotes more efficient and 
effective governance and is a major source of significant relative 
benefits of tribal self-governance. In fact, numerous self-governance 
tribes are award recipients who have been accorded high honors from the 
Harvard Project on American Indian Economic Development for Good 
Governance (Ak-Chin Indian Community for its Community Council Task 
Force; Chickasaw Nation for its Chickasaw Press; Choctaw Nation for its 
Domestic Violence Prevention Project; Citizen Potawatomi Nation for 
Constitutional Reform; Makah Tribe for its Cultural Education & 
Revitalization Program; Muscogee (Creek) Nation for its Reintegration 
Program; Oneida Tribe of Indians of Wisconsin for its Oneida Nations 
Farms; Osage Nation for its Governmental Reform Initiative; Red Lake 
Band of Chippewa Indians for its Walleye Recovery Program; Confederated 
Salish & Kootenai Tribes of the Flathead Nation for its Trust Resources 
Management; Tulalip Tribes of Washington for its Quil Ceda Village 
developed to achieve economic diversification; and Confederated Tribes 
of the Umatilla Indian Reservation for its Free Transportation System).
    Relative benefits of tribal self-governance are also generated by:

  <bullet> Waivers of Federal regulations when not prohibited by 
        Federal law or inconsistent with the terms of the funding 
        agreement;

  <bullet> Tribes having the authority to incorporate Title I 
        provisions into their self-governance funding agreements;

  <bullet> Tribes not being required to abide by Federal Program 
        Guidelines, Manuals, and Policy Directives;

  <bullet> Self-governance funds being treated as non-federal funds for 
        meeting matching requirements;

  <bullet> Eligibility to receive lump sum advance payments;

  <bullet> Authority to invest advance payments to generate interest 
        not accountable to DOI or a special revenue fund;

  <bullet> Establishment of a tribal base budget to promote stability 
        of funding over time;

  <bullet> Eligibility to receive new funds on the same basis as other 
        tribes;

  <bullet> Eligibility to receive non-recurring funds including 
        project, and needs based funds; and

  <bullet> Eligibility to receive pass-through funds from other 
        Agencies which are administered by BIA.

    Self-governance tribes are subject to annual trust evaluations to 
monitor the performance of trust functions they perform to ensure that 
there is no imminent jeopardy to physical trust assets, natural 
resources, and public health and safety. They are also subject to 
annual audits pursuant to the Single Audit Act and OMB Circular A-133, 
to ensure that audit standards are met and there is financial 
accountability of their tribal operations. In addition, most self-
governance tribes have included language in their funding agreements 
indicating that they will work with the BIA to provide applicable 
program performance data and information pursuant to the Government 
Performance and Results Act of 1993.
Conclusion
    We appreciate the ways that self-determination contracts and self-
governance funding agreements under this Act have helped to strengthen 
the government-to-government relationship with Indian Tribes. Indian 
tribes have been good managers of the programs they have undertaken 
through contracts and funding agreements under the ISDEAA. Many times, 
Indian tribes add their own resources to the programs and are able to 
fashion programs to meet their needs and the particular needs of their 
members. Indian tribes are also better suited to address the changing 
needs of their members.
    We appreciate the opportunity to provide our thoughts at this 
oversight hearing. On a broader note, I would like to reiterate this 
Administration's commitment to the government-to-government 
relationship with tribes. Many challenges face our Native American 
communities and this Administration is committed to working with this 
Committee and with tribes so that, together, we can create 
opportunities for these communities to grab hold of their future and to 
thrive and flourish.
    This concludes my statement and I will be happy to answer any 
questions you may have.

    Senator Akaka. Thank you very much, Mr. Roberts, for your 
testimony.
    Mr. Roberts, Tribes participating in self-governance 
programs have successfully utilized the program to meet the 
needs of their citizens. Other Tribes, as you know, wish to 
receive services directly from the BIA as bargained for in 
treaties. What is the department doing to balance the funding 
needs of both self-governance and direct service Tribes?
    Mr. Roberts. Thank you, Chairman Akaka, for that question. 
The department takes a view that it is up to every Tribe to 
determine which programs and which services they will take on 
and which services and programs they want administered by the 
Federal Government. In terms of an allocation of funds and how 
those funds are distributed between direct services and self-
governance Tribes, that varies from year to year depending on 
the agreements with Tribes.
    Senator Akaka. Thank you. Mr. Roberts, Tribes already note 
the chronic under-funding of contract support costs. What 
affect will sequestration have on these funds?
    Mr. Roberts. Well, I think sequestration itself would have 
a negative impact, Mr. Chairman. I think that the next panel 
may be able to provide information to the Committee regarding 
how those impacts are felt on the ground.
    Mr. Akaka. Well, thank you for that. I know that the 
department is trying to give the Tribes independent decisions 
to make and you continue to do that.
    Mr. Roberts, H.R. 2444 is a bill introduced in the House of 
Representatives aiming to amend the Indian Self-Determination 
and Education Assistance Act to impart streamlined regulations 
making it easier for Tribes to manage both Title IV and Title V 
programs. In the department's opinion, how would that bill 
advance the Federal-Tribal relationship through self-
governance?
    Mr. Roberts. Thank for the question, Mr. Chairman. Last 
fall, the department did testify in support of H.R. 2444 before 
the House Committee on Natural Resources. And our support 
there, we worked closely with Tribes to develop language that 
led directly to that legislation. My understanding is that the 
department's position with regard to that legislation has not 
changed and I think that legislation is intended to help 
streamline and make things more efficient in approving those 
programs and contracts.
    Senator Akaka. In your testimony, you highlighted a few 
initiatives being worked on between the Office of Self-
Governance and self-governance Tribes, including developing a 
curriculum for senior managers in new Tribes and a funding 
matrix methodology study. Can you tell us the expected outcomes 
of those initiatives?
    Mr. Roberts. Well, I know, thank you, Mr. Chairman, I know 
that we are working very hard on the curriculum and hoping to 
move that forward soon. With regard to the funding matrix 
itself, I would like to submit something for the record if that 
is okay. I am not entirely up to speed on that at this point in 
time.
    Senator Akaka. Thank you very much. I would certainly 
appreciate that.
    I want to thank you very much for being here and also for 
your testimony and your responses to our questions. As I 
mentioned in my history studies, you know, things will change 
and will continue to change and this Government needs to 
continue to adjust those changes as we move along in the best 
interests of the people.
    So, I appreciate what you folks are doing and I look 
forward to continuing to work with you on these matters. And if 
you have any recommendations to make legislatively, please let 
us know and we can discuss it, all for the sake of helping the 
indigenous peoples.
    Mr. Roberts. Thank you, Mr. Chairman. Thank you for having 
me here today and thank you for your leadership to the 
Committee and on behalf of the Native people.
    Chairman Akaka. Well, thank you again and I wish you well. 
Thank you, Mr. Roberts.
    I would like to invite the second panel to the witness 
table. Serving on our second panel is Mr. Ian Erlich who is 
President of the Maniilaq Native Association in Kotzebue, 
Alaska; Mr. Charles Head, Secretary of the State of the 
Cherokee Nation in Tahlequah, Oklahoma; and Ms. Noelani Kalipi, 
President of the TiLeaf Group in Hilo, Hawaii. Welcome to all 
of you. We are delighted to have you here with us.
    Mr. Erlich, will you please proceed with your testimony.

  STATEMENT OF IAN ERLICH, PRESIDENT/CEO, MANIILAQ ASSOCIATION

    Mr. Erlich. Thank you, Mr. Chairman.
    My name is Ian Erlich. I am the President and Chief 
Executive Officer of Maniilaq Association, an Alaska Native 
regional non-profit organization representing 12 Tribes in 
Northwest Alaska. I am thankful for the opportunity to testify 
regarding ways to advance the Federal-Tribal relationship 
through self-governance and self-determination.
    The Maniilaq Association has been involved with self-
governance from its inception. As such, we understand the many 
important benefits of self-governance. We also understand the 
ways in which self-governance needs to be improved to provide 
Tribes with the best tools possible to continue to advance the 
essential goals of self-governance.
    The Maniilaq Association has for many years carried out a 
range of health and social service programs in Northwest Arctic 
Borough on behalf of its member Alaska Native villages under 
the self-governance provisions of the Indian Self-Determination 
and Education Assistance Act, ISDEAA, including primary 
healthcare services, emergency treatment, mental and behavioral 
health services and health education, promotion and healthy 
lifestyle practices.
    The Maniilaq Association's participation in self-governance 
is a true success story. The Maniilaq Association is proud to 
report that, because of our involvement in self-governance, 
there is now a functional but, as I will discuss in a few 
minutes, severely under-funded clinic in each of its member 
villages.
    Most recently, the Maniilaq Association completed the 
construction of a long-term care facility adjacent to the 
health center. Completion of this project has been a long-term 
goal of the Maniilaq Association and was the product of many 
years of hard work. Final construction of the 18-bed facility 
was completed last year. The facility's first residents are 
moved in and the facility has enjoyed immense success.
    The Maniilaq Association also participates in self-
governance with the Department of the Interior under Title IV 
of the ISDEAA, including compacting of several Bureau of Indian 
Affair programs, functions, services and activities such as 
public safety and justice, job placement and training, natural 
resources, agriculture, forestry, wildlife and parks.
    The Maniilaq Association has also entered into a compact 
and funding agreement with one non-BIA agency, the National 
Parks Service, to perform custodial services, maintenance 
services and cultural education curriculum development at the 
Northwest Arctic Heritage Center. Maniilaq is also currently 
pursuing self-governance agreements with other non-BIA agencies 
but is still awaiting responses to requests made years ago for 
information regarding compactable PFSAs from these non-BIA 
agencies which appear reluctant to compact such programs.
    While the Maniilaq Association's involvement in self-
governance has resulted in significant positive developments 
for its Alaska Native villages and Native people, we continue 
to face serious funding challenges. I will briefly describe the 
three most pressing of these issues.
    First is the chronic underfunding of contract support costs 
which continues to impose major hardships on Tribal healthcare 
providers and patients around the Nation, including Alaska. As 
just one example, according to IHS' own CSC Shortfall Report, 
Maniilaq suffered a CSC shortfall for its Title IV health care 
programs alone at over $5 million for Fiscal Year 2009.
    We urge the Committee to continue to press for full funding 
of contract support costs to allow Maniilaq and other Tribal 
providers to use all program funds for the purposes Congress 
intended.
    The second pressing issue is the chronic underfunding of 
Village Built Clinics, known as VBCs. VBCs are essential for 
maintaining the IHS Community Health Aide Program, CHAP, in 
Alaska, which provides the only local source of healthcare for 
over 41,000 Alaska Native people.
    Despite their having enough appropriations to fully fund 
leases, the amount of funds IHS transfers to the Maniilaq 
Association and other Tribal organizations for VBC leases is 
not sufficient to cover the costs of repair and renovation of 
the VBCs as necessary to maintain them in a safe condition. 
Many clinics have been closed due to the hazards to the health 
service employees and patients, leaving villages without a 
clinic or access to CHAP services.
    For example, by Fiscal Year 2006 the lease rentals paid by 
IHS to the villages covered only 55 percent of operating costs. 
Maniilaq Association and other Tribal organizations in Alaska 
have discussed this issue with IHS on many occasions but the 
IHS continues to refuse to provide additional funding for the 
VBCs, forcing Maniilaq into a litigation posture with the 
agency.
    The third pressing issue is change to the funding cycle for 
Indian Health Service appropriations. For more than a decade, 
Federal appropriation bills have not been enacted prior to the 
beginning of the Federal Fiscal Year and have included several 
continuing resolutions causing funding under the ISDEAA to be 
uncertain and to trickle in over time. This has hampered the 
efforts of Tribes, Tribal and IHS healthcare providers to 
provide healthcare services, maintain and construct facilities, 
recruit professionals and staff and carry out other health-
related functions.
    These problems could be mitigated by an advance 
appropriation, funding that becomes available one year or more 
after the year of the appropriation's act in which it is 
contained. Congress provides such advanced appropriations to 
three Veterans Administration medical accounts to allow the VA 
to know its medical funding a year earlier and avoid continuing 
resolutions.
    This provides a compelling argument for Tribes and Tribal 
organizations to be given equivalent status with regard to IHS 
funding. We thus request that legislation be introduced and 
enacted amending the Indian Healthcare Improvement Act to 
authorize IHS advance appropriations and take such other steps 
as are necessary to provide such advance appropriations.
    Finally, two major initiatives must be mentioned when 
discussing the future of Tribal-Federal relationships as it 
relates to self-governance and self-determination.
    The first is the ongoing effort to update Title IV to 
create consistency between Title IV self-governance and the DOI 
and Title V self-governance in the DHHS to create 
administrative efficiency for Tribes. Most recently, Tribes 
faced opposition to such legislation from those interests that 
wish to limit the scope of non-BIA programs available for self-
governance compacting, including an effort to specifically 
exclude all water settlements as non-compactable under Title 
IV.
    We strongly support the revisions to Title IV in order to 
create consistency between Title IV self-governance and the DOI 
and Title V self-governance in DHHS while leaving the existing 
provisions on the non-BIA programs as they are currently.
    The proposed amendments to Title IV would significantly 
advance Congress' policy of strengthening Tribal self-
governance, allowing Tribes to prioritize their needs and plan 
for the future in a way that is consistent with each Tribe's 
culture, traditions and institutions. The time has come to pass 
this legislation amending Title IV.
    The second major initiative that is vital to the future of 
self-governance is the effort to extend Tribal self-governance 
to DHHS agencies other than only the Indian Health Service. In 
2003, the department's own feasibility study concluded that a 
Title VI demonstration project was feasible and identified 11 
programs that could be included in the project.
    Recently, DHHS convened a self-governance Tribal-Federal 
work group to develop detailed recommendations on how to 
overcome the legal and logistical barriers to implementing 
self-governance in non-ISH agencies. However, Federal 
representatives do not appear willing to base current 
discussions on the department's 2003 feasibility study. Tribal 
representatives see a fundamental transformation of the 
grantor-grantee relationship in a government-to-government 
relationship through ISDEAA while Federal representatives cling 
to the former model.
    At this stage it appears clear that the legislation will be 
necessary to bring self-governance to non-IHS program within 
DHHS. More specifics on each of these items I have discussed 
today can be found in my written testimony submitted to the 
Committee.
    In conclusion, I thank the Committee for holding this 
important hearing and advancing the Federal-Tribal relationship 
through self-governance and self-determination. On behalf of 
the Maniilaq Association, including our 12 constituent villages 
and their members, I sincerely hope that this Congress will 
address the chronic underfunding of contract support costs, 
Village Built Clinics and address the timing of ISH 
appropriations and move forward with efforts to amend Title IV 
of the ISDEAA to extend Title IV self-governance to non-IHS 
programs within the DHHS.
    I am ready to respond to any questions from the Committee.
    [The prepared statement of Mr. Erlich follows:]

 Prepared Statement of Ian Erlich, President/CEO, Maniilaq Association
Introduction and Brief History
    My name is Ian Erlich and I am President and Chief Executive 
Officer of the Maniilaq Association, an Alaska Native regional non-
profit organization representing twelve tribes in Northwest Alaska. I 
am thankful for the opportunity to testify regarding ways to advance 
the Federal-Tribal Relationship through Self-Governance and Self-
Determination. The Maniilaq Association has been involved with Self-
Governance from its inception. As such, we understand the many 
important benefits of Self-Governance. We also understand the ways in 
which Self-Governance needs to be improved to provide tribes with the 
best tools possible to continue to advance the essential goals of Self-
Governance.
    Congress, in enacting the Indian Self-Determination and Education 
Assistance Act (ISDEAA) in 1975, sought to encourage Indian tribes to 
develop self-determination by authorizing them the right to negotiate 
agreements with federal agencies in which funds and responsibilities 
for operating federal programs, services, functions and activities 
(hereinafter PFSAs) were transferred to tribes. In effect, through the 
ISDEAA, tribes step into the shoes of the Federal Government by 
assuming the responsibility for providing PFSAs formerly provided by 
federal agencies. That, in turn, builds the tribe's ability to perform 
essential governmental functions and allows tribes to improve the PFSAs 
by making them more responsive to tribal needs.
    Congress significantly amended the ISDEAA three times since its 
enactment in 1975. 1988, 1994, and 2000, in each instance to expand the 
successful law. The 1994 amendments revised a number of provisions in 
Title I and included a new Title IV, which implemented a permanent 
Tribal Self-Governance program within the Department of the Interior 
(DOI). The 2000 amendments included a new Title V, which repealed the 
Title III Self-Governance demonstration project and enacted a permanent 
Self-Governance program within the Department of Health and Human 
Services (DHHS).
    As stated above, the Maniilaq Association has participated in Self-
Governance from its inception, both under Title V (Self-Governance 
compacting with the IHS) and Title IV (Self-Governance compacting with 
the DOI). Below I briefly describe our history and successes under each 
program before discussing the ways in which Self-Governance can be 
improved and ways in which Self-Governance can be moved forward to 
advance the Federal-Tribal relationship.
Maniilaq Association's Participation in Self-Governance: A Success 
        Story
1. Self-Governance Under Title V of the ISDEAA (Compacting with the 
        IHS)
    The Maniilaq Association has for many years carried out a range of 
health and social services programs in the Northwest Arctic Borough on 
behalf of its member Alaska Native villages under the Self-Governance 
provisions of the ISDEAA, including primary health care services, 
emergency treatment, mental and behavioral health services and health 
education, promotion and healthy lifestyle practices. The Maniilaq 
Association carries out these programs in accordance with the Alaska 
Tribal Health Compact (ATHC)--a single agreement among the Indian 
Health Service and all tribes and tribal organizations in the State of 
Alaska, and its own, individual Funding Agreement with the Indian 
Health Service. The ATHC authorizes the co-signers to operate their own 
health care programs while maintaining their autonomy with respect to 
determining health priorities and what services to be provided and how 
health policies will be carried out within their respective service 
areas.
    The Maniilaq Association's participation in Self-Governance is a 
true success story. The Maniilaq Association is proud to report that 
because of our involvement in Self-Governance there is now a functional 
(but, as noted below, severely underfunded by the Indian Health 
Service) clinic in each of its member villages. Most recently, the 
Maniilaq Association completed the construction of a long term care 
facility adjacent to its Health Center. Completion of this project had 
been a long term goal of the Maniilaq Association and was the product 
of many years of work. Final construction of the 18-bed facility was 
completed last year. The facility's first residents are moved in and 
the facility has enjoyed immense success.
2. Self-Governance Under Title IV of the ISDEAA (Compacting with the 
        BIA and Non-BIA Agencies in the DOI)
    The Maniilaq Association also participates in Self-Governance with 
the Department of the Interior (DOI) under Title IV of the ISDEAA. 
Currently, Maniilaq has a Title IV Self-Governance compact and Annual 
Funding Agreement for several PFSAs and associated funding with the 
Bureau of Indian Affairs (BIA). Under that agreement, Maniilaq provides 
a broad range of PFSAs to its member villages, including Public Safety 
and Justice, Job Placement and Training, Natural Resources, Agriculture 
(food preservation), Forestry, Wildlife and Parks, Real Estate 
Services, Environmental Quality and Wildland Fire Management/Pre-
Suppression.
    Under Title IV a tribe or tribal organization may also compact non-
BIA PFSAs, or portions of such PFSAs, with agencies other than BIA, 
which are of special geographic, historical, or cultural significance 
to a tribe or tribal organization. Under this provision, the Maniilaq 
Association entered into a compact and funding agreement with the 
National Park Service in 2011 to perform Custodial Services, 
Maintenance Services, and Cultural Education Curriculum Development at 
the Northwest Arctic Heritage Center. Maniilaq is also currently 
pursuing Self-Governance agreements with other non-BIA agencies 
including the U.S. Fish and Wildlife Service; Minerals Management 
Service; Bureau of Land Management; Office of Surface Mining, 
Reclamation and Enforcement; and the U.S. Geological Survey 
(hereinafter ``non-BIA agencies''). The Maniilaq Association is still 
awaiting responses to requests made years ago for information regarding 
compactable PFSAs from these non-BIA agencies, which appear reluctant 
to compact such programs.
Continued Financial Challenges Maniilaq Association Faces in Advancing 
        Self-Governance
    While the Maniilaq Association's involvement in Self-Governance has 
resulted in significant positive developments for its Alaska Native 
Villages and Native people, we continue to face serious challenges that 
come from chronic underfunding of compacts and critical programs, as 
well as uncertain funding. The three most pressing of these funding 
issues are described below:

        1.  Chronic Contract Support Cost (CSC) Underfunding. 
        Underfunding of contract support costs (CSC) continues to 
        impose major hardships on tribal health care providers and 
        patients around the nation, including Alaska. Last year the 
        House proposed funding IHS for contract support costs at 
        $574,761,000, which would have reduced the CSC shortfall 
        dramatically. Ultimately, however, Congress appropriated 
        $471,437,491, requiring tribes to divert over $100 million from 
        health care services to fixed administrative expenses. Just 
        within the last several years, according to the IHS's own CSC 
        Shortfall Report, Maniilaq suffered a CSC shortfall for its 
        Title V health care programs alone of $5,152,747 for FY 2009 
        and $2,612,499 for FY 2010. Figures for FY 2011 are not yet 
        released. We urge the Committee to continue to press for full 
        funding of contract support costs. Assuming a modest increase 
        in program funding, we estimate that a CSC appropriation of 
        $595,000,000 would come close to eliminating the shortfall, 
        allowing Maniilaq and other tribal providers to use all program 
        funds for the purposes Congress intended.

        2.  Chronic Underfunding of Village Built Clinics (VBC). 
        Village Built Clinics are essential for maintaining the IHS 
        Community Health Aide Program (CHAP) in Alaska. The CHAP 
        provides the only local source of health care for over 41,000 
        Alaska Native people. Since the CHAP program could not operate 
        in most of rural Alaska without the use of clinic facilities in 
        Alaska Native villages, IHS established the ``village built 
        clinic'' leasing program in 1970. Yet, the IHS has consistently 
        under-funded the leases of the VBCs despite having available 
        appropriations to fully fund the leases. The amount of funds 
        IHS transfers to the Maniilaq Association and other tribal 
        organizations for VBC leases is not sufficient to cover the 
        cost of repair and renovation of the VBCs as necessary to 
        maintain them in a safe condition. Many clinics have been 
        closed due to the hazards to the health service employees and 
        patients, leaving villages without a clinic or access to CHAP 
        services. Lease rental amounts for VBCs have failed to keep 
        pace with costs--the majority of leases have not increased 
        since 1989. By FY 2006, the lease rentals paid by IHS to the 
        villages covered only 55 percent of operating costs. The 
        Maniilaq Association and other tribal organizations in Alaska 
        have discussed this issue with the IHS on many occasions, but 
        the IHS continues to refuse to provide additional funding for 
        the VBCs. For the FY 2013 appropriations, we request that an 
        additional $7.8 million \1\ be appropriated to help fully fund 
        VBC leases in 2013. Unfortunately, the chronic underfunding of 
        VBCs and the IHS's lack of assistance aimed at solving this 
        crisis has forced the Maniilaq Association into a litigation 
        posture with the IHS as we seek to restructure the VBC lease 
        arrangements in a way that recovers the full costs of operation 
        and maintenance.
---------------------------------------------------------------------------
    \1\ In previous testimony Maniilaq Association requested an 
additional $6.8 million, but it now believes an additional $7.8 million 
is needed because rural fuel costs are inflating faster than 
anticipated.

        3.  Change to Funding Cycle for Indian Health Service 
        Appropriations. For more than a decade, federal appropriations 
        bills have not been enacted prior to the beginning of the 
        federal fiscal year and have included several continuing 
        resolutions, causing funding under the ISDEAA to be uncertain 
        and to trickle in over time. This has hampered the efforts of 
        tribal and IHS health care providers to provide health care 
        services, maintain and construct facilities, recruit 
        professionals and staff, and carry out other health-related 
        functions. These problems could be mitigated by an advance 
        appropriation-funding that becomes available one year or more 
        after the year of the appropriations act in which it is 
        contained. For example, if FY 2014 advance appropriations for 
        the IHS were included in the FY 2013 Interior, Environment and 
        Related Agencies Appropriations Act, those advance 
        appropriations would not be counted against the FY 2013 
        Interior Appropriations Subcommittee's funding allocation but 
        rather would be counted against its FY 2014 allocation. It 
        would also be counted against the ceiling in the FY 2014 Budget 
        Resolution, not the FY 2013 Budget Resolution. Congress 
        provides such advance appropriations to three Veterans 
        Administration (VA) medical accounts to allow the VA to know 
        its medical funding a year earlier and avoid continuing 
        resolutions. The fact that Congress has implemented advance 
        appropriations for the VA medical programs provides a 
        compelling argument for tribes and tribal organizations to be 
        given equivalent status with regard to IHS funding. Both 
        systems provide direct medical care and both are the result of 
        federal policies. Just as the veterans groups were alarmed at 
        the impact of delayed funding upon the provision of health care 
        to veterans and the ability of the VA to properly plan and 
        manage its resources, tribes and tribal organizations have 
        those concerns about the IHS health system. We thus request 
        that legislation be introduced and enacted amending the Indian 
        Health Care Improvement Act to authorize IHS advance 
        appropriations and take such other steps as are necessary to 
---------------------------------------------------------------------------
        provide such advance appropriations.

Two Key Efforts to Advance the Tribal-Federal Relationship Through 
        Self-Governance and Self-Determination
    Two major initiatives must be mentioned when discussing the future 
of the Tribal-Federal relationship as it relates to Self-Governance and 
Self-Determination: (1) the efforts to amend Title IV of the ISDEAA to 
create consistency between Title IV and Title V; and (2) the current 
work to expand Tribal Self-Governance to non-IHS agencies within the 
DHHS under Title VI.

        1.  Current Efforts to Amend Title IV. The first major issue 
        for the ISDEAA moving forward is the ongoing effort to update 
        Title IV and make it consistent with Title V. Discussions 
        continue surrounding several different proposals to amend H.R. 
        2444 (i.e., the Department of the Interior Tribal Self-
        Governance Act of 2011 to create a new draft bill, and the 
        Department of the Interior Tribal Self-Governance Act of 2012 
        for introduction in either the House of Representatives or the 
        Senate during the current congressional session). The 
        amendments to Title IV of the ISDEAA are important to the 
        evolution of Self-Governance. Most significantly, these 
        amendments would create consistency between Title IV Self-
        Governance in the DOI and Title V Self-Governance in the DHHS 
        and create administrative efficiency for tribes. H.R. 2444, the 
        Department of the Interior Tribal Self-Governance Act of 2011, 
        was introduced in the House of Representatives in July of 2011. 
        H.R. 2444 has yet to pass in the House and no similar bill has 
        yet been introduced in the Senate. H.R. 2444 was a re-
        introduction of a similar bill, H.R. 4347, the Department of 
        the Interior Tribal Self-Governance Act of 2010, which passed 
        the House but failed to pass the Senate due to DOI opposition 
        to several provisions of the bill. Most recently tribes face 
        opposition to H.R. 2444 from those interests that wish to limit 
        the scope of non-BIA programs available for Self-Governance 
        compacting, including an effort to specifically exclude all 
        water settlements as non-compactable under Title IV. Tribes are 
        currently working with staff of the Senate Committee on Indian 
        Affairs to develop language that is mutually agreeable to both 
        sides. We strongly support the revisions to Title IV, in order 
        to create consistency between Title IV Self-Governance in the 
        DOI and Title V Self-Governance in the DHHS, while leaving the 
        existing provisions on non-BIA programs as they are currently 
        in the ISDEAA. The proposed amendments to Title IV will 
        strengthen tribal Self-Governance, allowing tribes to 
        prioritize their needs and plan for the future in a way that is 
        consistent with each tribe's culture, traditions and 
        institutions. The time has come to pass this legislation 
        amending Title IV, which would significantly advance Congress's 
        policy of promoting Tribal Self-Governance.

        2.  Efforts to Extend Title V Self-Governance to Other Agencies 
        within the DHHS. The second major issue relating to the future 
        of the ISDEAA is the continuing effort to extend Tribal Self-
        Governance to DHHS agencies other than only the Indian Health 
        Service. Title VI of the ISDEAA mandated a feasibility study 
        for including non-IHS agencies within the DHHS in a Self-
        Governance demonstration project and directed the DHHS 
        Secretary to examine the feasibility of applying Title V to 
        other agencies in the DHHS. As a result, the Department's 2003 
        Feasibility Study concluded that a Title VI demonstration 
        project was feasible, identified eleven programs that could be 
        included in the project, and set forth recommendations and 
        parameters for the legal framework of the project. Since that 
        time, however, no further progress has been made. To assist 
        DHHS in implementing Title VI and other Self-Governance 
        initiatives, DHHS convened a Self-Governance Tribal Federal 
        Workgroup (SGTFW) consisting of ten tribal delegates and ten 
        alternates from around the country, which began meetings in 
        January of this year. The charge of the Workgroup is to develop 
        detailed recommendations on how to overcome the legal and 
        logistical barriers to implementing Self-Governance in non-IHS 
        agencies. However, from the beginning the gulf between the 
        federal and tribal visions of Title VI implementation was 
        apparent. Federal representatives do not appear willing to base 
        current discussions on the Department's 2003 Feasibility Study. 
        By contrast, Tribal representatives felt strongly that the 2003 
        Feasibility Study should provide the foundation and starting 
        point of the SGTFW's work so as to not be duplicative. 
        Importantly, tribal representatives envision a program that 
        uses funding agreements with the key substantive and procedural 
        protections of Title V, adapted to fit the distinctiveness of 
        the non-IHS agencies. Federal representatives, however, have 
        urged tribal representatives to scale back their vision and 
        consider non-ISDEAA models such as the 477 program \2\ or 
        inclusion of Self-Governance language in the legislative 
        reauthorization of some single program. Thus, where tribal 
        representatives see a fundamental transformation of the 
        grantor-grantee relationship into a government-to-government 
        relationship, federal representatives cling to the former 
        model. At this point it is not clear where the Title VI 
        initiative will go, but legislation will be necessary to bring 
        Self-Governance to non-IHS programs within DHHS.
---------------------------------------------------------------------------
    \2\ P.L. 102-477, Indian Employment, Training and Related Services 
Act, which allows tribes to consolidate federal employment and training 
formula-funded grants.
---------------------------------------------------------------------------
Conclusion
    The Indian Self-Determination Act has for 35 years provided a 
mechanism for many tribes to successfully develop capacity for 
government-building activities. I thank the Committee for holding this 
important hearing on advancing the Federal-Tribal relationship through 
Self-Governance and Self-Determination. On behalf of the Maniilaq 
Association, including our twelve constituent villages and their 
members, I sincerely hope that this Congress will address the chronic 
underfunding of contract support costs and village built clinics, 
address the timing of IHS appropriations, and move forward with efforts 
to amend Title IV of the ISDEAA and to extend Title V Self-Governance 
to non-IHS programs within the DHHS. I am ready to respond to any 
questions from the Committee.
    Thank you.

    Senator Akaka. Thank you very much for your testimony, 
President Erlich.
    Secretary Head, please proceed with your statement.

 STATEMENT OF CHARLES HEAD, SECRETARY OF STATE, CHEROKEE NATION

    Mr. Head. Thank you Mr. Chairman, Ms. Murkowski. My name is 
Charles Head, Secretary of State for the Cherokee Nation, and I 
am here representing Principal Chief Bill John Baker and the 
Cherokee Nation. I thank you for the opportunity to share some 
information about Cherokee Nation and our self-governance 
programs.
    In 1990, I was working for the Bureau of Indian Affairs and 
sat across the table from the Cherokee Nation as the first 
compact was negotiated. In Fiscal Year 1991, I went to work for 
the Cherokee Nation, became the Tribe's first self-governance 
coordinator, and participated fully in the implementation of 
the development of self-governance and the implementation of 
the program for more than 10 years.
    I have looked at this program as the self-governance 
coordinator, as the Chief Financial Officer for the Tribe, and 
now as the Secretary of State and I fully support self-
governance and what it brings to the Tribes.
    Cherokee Nation is one of the largest Tribes in the United 
States. We are also one of the largest employers in 
Northeastern Oklahoma. We indirectly support more than 13,000 
jobs. The Tribe directly is responsible for 9,000 jobs, both in 
our businesses and in our government operations.
    Our healthcare program, last year we had, in our eight 
rural health clinics, completed more than 1.1 million patient 
visits. We operate W.W. Hastings Indian Hospital in Tahlequah, 
Oklahoma, a hospital designed for 30,000 to 60,000 patient 
visits. Last year, we had 300,000 patient visits. We are able 
to operate these health services with IHS funding, with third-
party collections and with dollars added from our Tribal 
businesses.
    We operate, through our Department of Interior Self-
Governance Program, law enforcement, real estate services, 
various trust programs and education programs. We operate 
Sequoyah High School which was a BIA boarding school that was 
low performing and inadequate and now is State chartered, fully 
certified and we handle, we serve more than 400 students each 
and every year, grades 8 through 12, and from more than 30 
Tribes, students from more than 30 different Tribes.
    One of the two major areas of concern for the Cherokee 
Nation is contract support costs, inadequate funding. The 
Cherokee Nation has participated in, and initially filed a 
lawsuit against, the Indian Health Services through a Contracts 
Disputes Act claim which was proven by the Supreme Court and 
then, in later years, the Ramah Navajo case is a similar case 
that shows that Indian Health Service and BIA are not 
adequately funding the contract support costs.
    Contract support costs are administrative costs that each 
and every business or contractor must pay to administer these 
programs. And when the Federal Government does not supply 
adequate funding, direct care dollars must be used to support 
the operation of these programs. Our contract support claims 
for this latest round, from 2005 to current for the Indian 
Health Service, is nearly $50 million and it is almost $1 
million for the Department of the Interior. Those are direct 
program service dollars that we were not able to provide for 
services to our people.
    We ask for your support and help in promoting that the 
Indian Health Service and the Department of Interior quickly 
come together with Tribes and settle these claims so that we 
can bring in those Tribal, these dollars back into the Tribal 
coffers to provide services for our people.
    The second area of concern is sequestration, which you 
mentioned earlier, Mr. Chairman. I have a report here that I 
would like to provide to the Committee to be put into the 
record. This is a report developed by our treasurer and it is 
providing information on what these cuts could mean to each of 
our program areas for each of the Federal agencies. It is an 
example and it is based on a 10 percent cut, not the 8.2 that 
it is in the law. But if it pleases the Chair, I would like to 
provide this information, this report, which will provide you 
with some real world examples for what these, for the job cuts 
and the cuts in services that this sequestration could have on 
the operation of our Tribe.
    Lastly, Mr. Chairman, I would like to invite the Committee 
and your staff to visit the Cherokee Nation, to see what we do 
with our dollars that are provided in these important self-
governance programs.
    And lastly, I would like to say that the Cherokee Nation 
strongly supports self-governance for Native Hawaiians and if 
there is any technical assistance in the area of self-
governance that we can provide, all you have go to do is ask.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Head follows:]

Prepared Statement of Charles Head, Secretary of State, Cherokee Nation
Introduction
    Chairman Akaka, Vice Chairman Barrasso and members of the 
Committee, thank you for convening this hearing on ``Advancing the 
Federal-Tribal Relationship through Self-Governance and Self-
Determination.'' I am Charles Head, Cherokee Nation Secretary of State 
and on behalf of the Cherokee Nation, I am here to ensure the United 
States' trust responsibility is maintained and the successful policy of 
Self-Governance continues to be strengthened so tribes can better and 
more efficiently serve their citizens.
    Cherokee Nation was one of the first tribes to enter into a treaty 
with the United States. In that tradition, the Cherokee Nation executed 
a self-determination compact under Title III of the Indian Self-
Determination and Education Assistance Act (ISDEA). This gave the tribe 
more authority to administer its own programs and essential services. 
In just two decades, Cherokee Nation has taken over the administration 
of several Bureau of Indian Affairs (BIA) and Indian Health Service 
(IHS) programs.
    ISDEA is a powerful mechanism that provides tribes with the 
opportunity to administer essential governmental services and engage in 
local economic and resource development that is culturally appropriate 
and reflects the local population's needs. The Self-Governance program 
is a model of efficiency for the Federal Government, reducing its 
costly administrative burdens. But rather than rewarding efficiency and 
quality services, implementation of the Budget Control Act in early 
2013, specifically the sequestration provision, threatens to cut 
tribally administered programs by 8.2 percent.
    While Self-Governance falls under discretionary funding, it must be 
understood that funding tribal programs is the fulfillment of treaty 
obligations between tribes and the United States. During this period of 
fiscal constraints, it is prudent to view the Self-Governance program 
as an effective administrative model deserving of support, rather than 
cutting funding to a program that is a solution to the Federal 
Government's current economic challenges.
    Self-governance builds tribal capacity. Cherokee Nation is 
currently the largest employer in northeastern Oklahoma and has an 
economic impact of more than $1.06 billion on the State's output level, 
including $401 million in State income impacts. Cherokee Nation 
supports 13,527 jobs in a predominantly under-developed, rural region 
of Oklahoma. While 3,250 people are employed in the Nation's 
government, an ever-increasing number of people are employed in the 
Nation's diverse portfolio of businesses, which include the 
hospitality, healthcare, aerospace, and technology sectors.
    Although the combined revenue streams from the Tribe's diverse 
business operations help fund essential government services that expand 
economic development and job growth in Oklahoma, there must also be 
adequate funding for IHS and BIA self-governance contracts.
Indian Health Service
    Under a Self-Governance contract with the Department of Health and 
Human Services, the Cherokee Nation constructs and maintains waterlines 
and improves sanitary services throughout our region. Furthermore, the 
Tribe operates a sophisticated network of eight rural outpatient health 
centers that provide Native People with primary medical care, dental 
service, optometry, radiology, mammography, behavioral health promotion 
and disease prevention, and a public health nursing program.
    In addition to these services, the Cherokee Nation operates W.W. 
Hastings Indian Hospital in Tahlequah, Oklahoma. Hastings is a 60-bed 
facility offering outpatient and ancillary services with over 300,000 
outpatient visits each year and more than 335,000 prescriptions filled 
annually. Full funding is required to continue this successful 
partnership in fulfillment of the Unites States' trust obligations. 
Additionally, Cherokee Nation requests that this Committee work with 
all of Congress to ensure that IHS is exempt from future reductions 
during the appropriations process as well as sequestration that is set 
to go into effect in early 2013.
Bureau of Indian Affairs
    Cherokee Nation also contracts with the Department of Interior to 
administer a wide array of federal programs serving American Indians. 
Full federal funding is crucial for continued administration of social 
services, child wellness programs, child abuse services, adult and 
higher education, housing improvement, law enforcement service, road 
and bridge construction, planning and maintenance, forestry and real 
estate programs, and Johnson O'Malley education programs.
Self-Governance Education Services
    One of the best examples of what happens when Native People 
administer their own programs is Sequoyah Schools system. In 1985, 
Cherokee Nation gained control of Sequoyah Schools, a former 
underperforming BIA boarding school. After years of tribal control, 
Sequoyah is now regionally and state accredited, consistently meets 
Adequate Yearly Progress goals and is flourishing. The Campus covers 
over 90 acres and houses more than 400 students in grades 7-12 
representing 42 Tribes. Furthermore, in the 2011 and 2012 school years, 
ten Sequoyah Schools' seniors were named Gates Millennium Scholars by 
the Bill and Melinda Gates Foundation. This honor entitles the students 
to one of the most prestigious scholarships in the United States, 
including college tuition, books, fees, and room and board for up to 
eight years worth of higher education.
    Cherokee Nation and other tribes better understand how to educate 
our children and provide cultural curricula that revitalizes and 
protects language and tribal history. The School also creates an 
academic environment that mirrors college preparatory schools by 
utilizing an advanced curriculum and using data collection to track 
student progress and school performance, which allows the 
administrators to quickly address any deficiencies or problems that 
develop. In 2010, nearly 30 million dollars in tribal money went to 
fund Cherokee services like education programs. However, the Tribe is 
still reliant on federal grants and funding for many programs. 
Insufficient funding for contract support costs, and potentially 
sequestration, could force the reallocation of tribal funds, from 
successful services like education, to cover the shortfalls in other 
tribally-administered programs.
Tribal Priority Allocations (TPA)
    We join other Self-Governance Tribes in requesting that this 
Committee guarantees funding increases for the fundamental services 
provided under the broad category of TPA. Of the 566 federally-
recognized Tribes, 235 Tribes manage their own affairs under Self-
Governance agreements with the BIA. Although these tribes account for 
42 percent of the federally-recognized tribes, they received roughly 
only 15 percent of the BIA budget, which bears the responsibility for 
providing services to all federally-recognized Tribes.
    The President's FY 2013 budget includes $2.5 billion for BIA, which 
is $4.6 million or 0.2 percent below the FY 2012 enacted level. While 
this is basically level with FY 2012's Budget, any decrease strains 
tribal governments. Further, the budget proposes a total of $897.4 
million in Tribal Priority Allocations and to advance the policy of 
Self-Governance, we ask that Congress protects these funds as the 
budget process proceeds.
Contract Support Costs (CSC)
    CSCs for ISDEA contractors cover the independently-audited fixed 
overhead costs that an ISDEA contractor must incur to operate an agency 
activity, like annual audits and payroll administration. These costs 
are equivalent to ``general and administrative costs'' required by 
government procurement contractors, which are generally set by indirect 
cost rates issued by the Federal Government.
    Because CSCs are fixed costs that a contractor must incur, tribes 
are required to either (1) reduce funds budgeted for critical 
healthcare, education and other services under contract to cover the 
shortfall; (2) divert tribal funds to subsidize the federal contract 
(when such tribal funds are available); or (3) use a combination of 
these two approaches. For example, every $1 million that the Cherokee 
Nation must divert from direct patient care to cover a contract support 
costs shortfall, the Cherokee Nation health system must forego 5,800 
patient visits.
    While the President's FY 2013 Budget request for IHS is $4.42 
billion--an increase of $115.9 million over the FY 2012 enacted level--
IHS sees only a very modest $5 million increase in IHS funding for 
contract support. The Cherokee Nation appreciates the increase, but it 
is less than a one percent increase over the FY 2012 enacted level. 
Although IHS has been reluctant to release shortfall reports, the 
National Tribal Contract Support Cost Coalition projects a CSC 
requirement of $575.8 million for Indian Health Services. However IHS 
has only requested $476.4 million, which would leave a shortfall of 
nearly $100 million. This shortfall would substantially impact Cherokee 
Nation, which, like other tribes across the United States, operates 
replacement or joint-venture facilities throughout our tribal 
jurisdiction.
    Fortunately in June of 2012, the House Appropriations Committee 
approved the Fiscal Year 2013 Interior-Environment Appropriations 
Funding Bill, which would almost fully fund contract support costs. 
This Appropriations Bill would increase the IHS contract support cost 
line by roughly $70 million to $546 million, and would increase the BIA 
line by $8 million to $228 million--the BIA projects a FY 2013 
requirement of $242 million. Cherokee Nation is appreciative of these 
substantial increases in the midst of constrained budgets and 
sequestration's planned implementation in early 2013.
    Because CSCs are federal contractual obligations with tribes, 
Cherokee Nation hopes that this Committee ensures the Senate will work 
with the House to protect those increased IHS and BIA budgets over the 
President's request. Shortfalls lead to reduced services and jobs for 
our people and the State of Oklahoma. Therefore, Cherokee Nation 
supports the House Appropriations language that provides near-full 
funding for CSCs and requests that the Senate uphold the increases.
Ramah Navajo v. Salazar, 132 S. Ct. 2181 (2012)
    In June of 2012, tribes achieved a huge victory for tribal self-
determination and Self-Governance contracts with Ramah v. Salazar. In 
that case, the Supreme Court held that BIA had failed to fully fund 
CSCs between the years of 1994-2001. Previously in Cherokee Nation v. 
Leavitt (2005), the Supreme Court held that the United States is liable 
to pay full contract support costs where IHS failed to fully fund them. 
These decisions put tribal contractual agreements on the same level as 
all other federal contractual agreements, as they should have been all 
along.
    Due to the ruling in Ramah, there will now be hundreds of tribes 
filing thousands of claims to recover CSC shortfall funds. Recently, 
Chickasaw Nation reached a roughly $7 million settlement regarding a 
small portion of their filed claims. This relatively small claim took 
seven years. This is unacceptable. Therefore, I ask that this Committee 
works with the rest of Congress to ensure federal agencies are 
committed to adopting and utilizing a method that guarantees the fast 
processing of future claims.
    Additionally, Congress should actively ensure that no technical 
barriers, such as statutes of limitation or claim presentment 
requirements, create agency obstructions. The claims process must also 
increase agency transparency. Finally, because of the lengthy claims 
process, the United States could more efficiently resolve the matter by 
simply negotiating a settlement of all CSC underpayments suffered by 
all tribal contractors from 1994 to present.
Conclusion
    In conclusion, Cherokee Nation is committed to providing federal 
services and direct, local-level programs, including job creation, 
education, health and law enforcement services. Self-Governance is an 
efficient model that utilizes federal dollars better than what the U.S. 
Government could otherwise provide to tribal citizens. The Federal 
Government's current fiscal situation, contract support cost 
shortfalls, and the pending threat of sequestration's across-the-board 
budget cuts should not affect Cherokee Nation's self-determination nor 
negate the United States' trust and treaty responsibilities. This is 
especially true when the program often underfunded is a shining example 
of better providing services without bureaucratic entanglements. Thank 
you for your continued support and for the opportunity to testify on 
``Advancing the Federal-Tribal Relationship through Self-Governance and 
Self-Determination.'' I will happily answer any questions you may have.
    Attachment
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Akaka. Thank you very much, Secretary Head, for 
your testimony.
    Ms. Noelani Kalipi, will you please proceed with your 
testimony.

    STATEMENT OF D. NOELANI KALIPI, PRESIDENT, TILEAF GROUP

    Ms. Kalipi. Aloha, Chairman and Senator Murkowski.
    Senator Akaka. Aloha.
    Ms. Kalipi. Thank you for providing me with the opportunity 
to testify this afternoon. My name is Noelani Kalipi and I 
serve as the President for TiLeaf Group, a national advocacy 
firm that works with Native and non-Native organizations on 
projects, services and programs to contribute to the well-being 
of Native communities.
    The Federal policy of self-governance and self-
determination empowers Native peoples because it recognizes 
first in policy, and more importantly in practice, the right of 
Native peoples to govern themselves and their resources.
    The success of these policies is evidenced by the steady 
growth of sustained economic development across the Nation by 
Native governments. This success is largely due to the 
accountability provided by self-rule. Native leaders making 
decisions about Native resources have the biggest stake in the 
outcomes of these decisions because the resources are theirs 
and because they must live with the consequences of their 
actions.
    Many Native governments are at different points of self-
rule within the Federal framework. What remains fundamental, 
however, is their access to the Federal policies that empower 
them to engage in self-governance and self-determination. As a 
matter of parity, Native Hawaiians who have been repeatedly 
recognized by the United States as Hawaii's indigenous peoples 
should have access to the Federal policies of self-governance 
and self-determination through a federally-recognized 
government-to-government relationship.
    Thank you, Mr. Chairman and Members of this Committee, for 
voting to approve the substitute amendment to S. 675, the 
Native Hawaiian Government Reorganization Act of 2012, which 
provides a process for the reorganization of the Native 
Hawaiian government for the purposes of a federally-recognized 
government-to-government relationship with the United States.
    As a condition of Statehood, the State of Hawaii agreed to 
administer the Hawaiian Homelands Trust that you referred to, 
Mr. Chairman, in your statement, a Federal land trust that was 
created by Congress in 1921 to rehabilitate Native Hawaiians. 
The State of Hawaii created an agency to fulfill the role of 
administrating the trust, and this has resulted in the State 
agency managing lands on behalf of Native Hawaiians. In 
addition, in Hawaii non-profits provide a number of community 
services on behalf of Native Hawaiians.
    The State and non-profit framework, while well-intentioned, 
does not allow for true self-governance and self-determination 
by Native Hawaiians. Instead, it has resulted in the State of 
Hawaii managing Native lands and resources on behalf of Native 
Hawaiians in drastic contrast to the self-rule afforded to 
other Native peoples through the Federal policy of self-
governance and self-determination.
    Mr. Chairman, as a Native people we want to, and we need 
to, manage our own resources. It is in our best interests and 
in the best interests of the State of Hawaii and the United 
States.
    The State of Hawaii continues to support greater self-
governance for Native Hawaiians. As recently as last year, the 
Hawaii State Legislature passed, and the governor enacted into 
law, Act 195, which established a Native Hawaiian Roll 
Commission. The legislation was unanimously passed by the 
State's House of Representatives and was approved by 23 of 25 
votes in the Hawaii State Senate. Act 195 serves as clear 
evidence of the State of Hawaii's recognition of, and continued 
support for, self-governance and self-determination by Native 
Hawaiians.
    S. 675 reaffirms the legal and political relationship 
between Native Hawaiians and the United States as is consistent 
with the recommendations made by the Departments of the 
Interior and Justice in 2000 as part of the reconciliation 
process that was committed to by the United States in Public 
Law 103-150, the Apology Resolution. S. 675 is important to the 
Federal-Tribal relationship, Mr. Chairman, because it provides 
parity in Federal policies addressing our Nation's indigenous 
peoples.
    The terms Indian and Tribe are terms of art that refer to 
Native peoples as individuals or collectively. There are 
hundreds of different Native groups with different languages, 
cultures and traditions who are indigenous to the United 
States. The fact that they are from different regions of the 
United States and speak different languages does not change the 
fact that they are indigenous peoples with whom the United 
States has executed treaties, took lands into trust on their 
behalf, and has a special responsibility to promote their 
welfare through the Federal policy of self-governance and self-
determination.
    The reference to Native groups as Indians or Tribes is a 
reflection of their status as indigenous peoples. S. 675 
provides parity by treating Native Hawaiians equally with the 
same terminology under Federal law.
    Mr. Chairman, thank you and your Committee for your 
tireless efforts over the tenure of your career in the United 
States Congress to support the Federal-Tribal relationship. 
Whether it has been through your support for the Native 8(a) 
Program, which is one of the few effective Federal policy 
working to promote economic development in Native communities, 
or in financial literacy and access to capital for Native 
peoples through new market tax credits, or helping to educate 
policymakers about the importance of the Federal trust 
responsibility and its foundation for so many Federal policies 
involving Native peoples, your efforts have created 
opportunities for sustained economic development for our 
Nation's first peoples.
    Your mere presence as a Native Hawaiian Chairman of this 
distinguished Committee is a source of inspiration for our 
youth and great pride for all Native peoples. We thank you and 
pledge to ensure that your legacy will never be forgotten.
    Mahalo.
    [The prepared statement of Ms. Kalipi follows:]

    Prepared Statement of D. Noelani Kalipi, President, TiLeaf Group
    Aloha Chairman Akaka, Vice-Chairman Barrasso and Distinguished 
Members of the Senate Committee on Indian Affairs. Thank you for 
providing me with the opportunity to testify this afternoon.
    My name is D. Noelani Kalipi and I serve as the President for 
TiLeaf Group, a native social enterprise that works with native and 
non-native companies and organizations focused on projects, services 
and programs that contribute to the well-being of native communities. A 
substantial portion of our activity is focused on community-based 
economic development and empowerment in native communities across the 
nation.
    The federal policy of self-governance and self-determination 
empowers native peoples because it recognizes in policy and in practice 
the right of native peoples to govern themselves and their resources. 
The success of these policies is evidenced by the steady growth of 
sustained economic development across the nation among native 
governments. As described by Stephen Cornell and Joseph Kalt in 
reference to impoverished Indian nations:

         ``. . . a growing number of those nations have broken out of 
        the prevailing pattern of poverty. They have moved aggressively 
        to take control of their futures and rebuild their nations, 
        rewriting constitutions, reshaping economies, and 
        reinvigorating Indigenous communities, cultures, and families. 
        Today they are creating sustainable, self-determined societies 
        that work in all dimensions--economic, social and political.'' 
        \1\
---------------------------------------------------------------------------
    \1\ Cornell, Stephen and Kalt, Joseph P., ``Two Approaches to the 
Development of Native Nations, One Works, the Other Doesn't,'' 
Rebuilding Native Nations: Strategies for Governance and Development, 
2007, p.6.

    Accountability is a vital element in the success of the federal 
policy of self-governance and self-determination. When given the 
opportunity to self-govern, native decision makers are held accountable 
for their choices and their consequences--both good and bad. According 
to Cornell and Kalt, this accountability makes for more quality 
decisions and results in Native nations being ``better decision makers 
about their own affairs, resources, and futures because they have the 
largest stake in the outcomes.'' \2\
---------------------------------------------------------------------------
    \2\ Id., p. 21.
---------------------------------------------------------------------------
    Native governments are at different points in the continuum of 
self-governance and self-determination. What remains fundamental, 
however, is their access to the federal policy that empowers them to 
engage in self-governance and self-determination. Mr. Chairman, thank 
you for your tireless effort over the past thirteen years to extend 
these policies to Native Hawaiians, who have been repeatedly recognized 
by the United States as Hawaii's indigenous peoples. S. 675, the Native 
Hawaiian Government Reorganization Act of 2012, provides the process 
for the extension of the federal policy of self-governance and self-
determination through a federally recognized government-to-government 
relationship between Native Hawaiians and the United States.
    Through your leadership, many of us in Hawaii better understand and 
appreciate the fundamental tools that these federal policies provide. 
Native Hawaiians are already recognized by the United States as 
Hawaii's indigenous peoples, as evidenced by the 150-plus federal 
statutes addressing the conditions of Native Hawaiians. As our history 
has demonstrated, without access to the federal framework of self-
governance and self-determination, however, Native Hawaiians don't have 
the same tools available to manage and control their resources. 
Enacting S. 675 provides the United States will the ability to better 
fulfill its responsibilities to Native Hawaiians as its indigenous 
peoples.
    In the absence of a federally recognized government-to-government 
relationship between the United States and Native Hawaiians, the State 
of Hawaii has created mechanisms to help manage the Native Hawaiian 
land trusts and resources. This effort, while well-intentioned, does 
not allow for self-governance and self-determination by Native 
Hawaiians. Instead, it has resulted in the State of Hawaii managing 
native lands and resources on behalf of Native Hawaiians. Native 
Hawaiians, as a people, want to and need to manage their own resources.
    The Hawaiian Homes Commission Act of 1920 (HHCA) was enacted by the 
U.S. Congress in 1921 and set aside 200,000 acres of land for 
homesteading, agricultural and pastoral use by Native Hawaiians. The 
Act was based on prevailing federal policies towards Native peoples at 
the turn of the century which focused on assimilation and allotment. 
The Dawes Act and Burke Act focused on providing eligible Indians with 
allotments of lands for residential, ranching, and agricultural 
purposes. The general concept behind this policy was to return Native 
people to the land. The Hawaiian Homes Commission Act was modeled after 
these Indian General Allotment Acts as it sought to ``rehabilitate'' 
the Native Hawaiian people by placing them back on their ancestral 
lands. Learning from tragic circumstances that resulted in American 
Indians losing some of their lands, the HHCA created a federal land 
trust that provided for 99-year leases to qualified Native Hawaiians, 
thereby ensuring the longevity of the trust lands to benefit the Native 
Hawaiian people.
    In 1959, when Hawaii entered into statehood, prevailing federal 
policies towards Natives were to delegate authorities over Natives to 
state governments. As a condition of Statehood, therefore, the State of 
Hawaii agreed to administer the Hawaiian Home Lands trust. Section 4 of 
the Hawaii Admissions Act (P.L. 86-3, 73 Stat 4) specifically provides 
that ``As a compact with the United States relating to the management 
and disposition of the Hawaiian home lands, the Hawaiian Homes 
Commission Act, 1920, as amended, shall be adopted as a provision of 
the Constitution of said State . . . subject to amendment or repeal 
only with the consent of the United States . . .''. The Federal 
Government retains oversight of the Hawaiian Homes Commission Act to 
ensure that the original intent of the HHCA is maintained; clear 
evidence of its effort to retain its trust responsibility towards 
Hawaii's indigenous peoples.
    The State of Hawaii established the Department of Hawaiian Home 
Lands (DHHL) in 1961 to fulfill its mandate to administer the Hawaiian 
Home Lands trust. DHHL is governed by nine Commissioners who are 
appointed by the Governor. The DHHL Director serves as the Chairman of 
the Hawaiian Homes Commission, and also as a member of the Governor's 
cabinet.
    Beneficiaries of the HHCA govern themselves through the existence 
of beneficiary organizations called homestead community associations. 
These organizations, which have existed as long as homestead 
communities, have representative leadership through democratically 
elected processes for each homestead area. Homestead associations are 
important partners that help the State of Hawaii to fulfill its 
responsibilities under the HHCA because they know their communities and 
lands, and are best able to engage their communities and to communicate 
with state and federal policymakers to address issues of priority. If 
one were to analogize the state framework to the federal framework, 
DHHL is a managing agency similar to the Bureau of Indian Affairs, and 
the homestead community organizations are the tribes--governing 
entities at the community level who work to address their community's 
needs and resources.
    The difference here is that DHHL is a state agency whose inherent 
responsibility is to the state rather than to the beneficiaries. The 
strength of the relationships between DHHL and the beneficiaries and 
homestead community associations are largely based on the state 
appointed officials who run the agency. In certain situations, there 
can be a conflict in terms of what is in the best interest of the State 
versus what is in the best interest of the beneficiaries and the 
administration of the Hawaiian Home Lands trust. The current framework 
sometimes puts Commissioners in the awkward position of having the 
responsibility to make decisions in the best interest of the Hawaiian 
Home Lands trust while facing the reality that they are political 
appointees of the Governor and sometimes advised to make decisions in 
terms of the best interests of the State of Hawaii. These situations 
best illustrate the challenges faced by Native Hawaiians and the 
consequences of not being afforded the opportunity to federal policies 
that encourage and empower native peoples to manage their lands and 
resources within the federal framework of self-governance and self-
determination.
    As another condition of Statehood, the State of Hawaii took title 
to 1.4 million acres of land that had been ceded to the United States 
by the Republic of Hawaii upon annexation to the United States. Section 
5(f) of the Hawaii State Admissions Act provides that revenues from 
these lands shall be utilized for five purposes, one of which is for 
the betterment of native Hawaiians. In 1978, Hawaii held a 
Constitutional Convention. The constitutional convention delegates 
voted to establish the Office of Hawaiian Affairs (OHA) as a means to 
utilize the portion of the said revenues from the ceded lands for the 
betterment of Native Hawaiians. This action was taken in support of 
Native Hawaiians and their lands and resources, utilizing the tools 
available at the state level. The Hawaii electorate ratified the 
delegates' decision to create OHA, reflecting the widespread view among 
Hawaii residents that its indigenous peoples should have a mechanism to 
manage Native Hawaiian resources. The agency is governed by a nine 
member Board of Trustees which elected statewide by all Hawaii voters.
    While Native Hawaiians have been elected to govern OHA and are 
appointed by the Governor to serve on the Hawaiian Homes Commission, 
both OHA and DHHL are state agencies. While based on good intentions 
and best efforts, the management of Native Hawaiian resources within 
the state framework does not result in self-governance and self-
determination by Native Hawaiians, nor does it result in Native 
Hawaiian control and management of resources--a fundamental element of 
self-rule under the federal framework. The enactment of S. 675, the 
Native Hawaiian Government Reorganization Act of 2012, would address 
this inequity and provide for Native Hawaiian control, management and 
accountability of native lands and resources, thereby providing parity 
in federal policies towards American Indians, Alaska Natives and Native 
Hawaiians.
    The State of Hawaii continues to support greater self-governance 
for Native Hawaiians. As recently as 2011, the Hawaii State Legislature 
passed and the Governor enacted into law Act 195 which establishes a 
Native Hawaiian Roll Commission. Act 195 recognizes the Native Hawaiian 
people as the only indigenous, aboriginal population of Hawaii and 
expresses the State's support for the continuing development of the 
reorganization of the Native Hawaiian governing entity for a federally 
recognized government-to-government relationship with the United 
States. The legislation was unanimously passed by the State's House of 
Representatives and was approved by 23 of 25 votes in the Hawaii State 
Senate.
    Act 195 serves as clear evidence of the State of Hawaii's 
recognition of and continued support for self-governance and self-
determination of the Native Hawaiian people. Thank you, Members of this 
Committee, for modifying S. 675 last week in your consideration of the 
substitute amendment to S. 675, to reflect the State of Hawaii's action 
in establishing the Native Hawaiian Roll Commission in support of 
increased self-governance and self-determination for Native Hawaiians.
    In 1993, President Clinton signed P.L. 103-150, commonly referred 
to as the ``Apology Resolution'' into law. The Apology Resolution 
apologizes to Native Hawaiians for the participation of the United 
States in the overthrow of the Kingdom of Hawaii and commits the United 
States to a process of reconciliation with Native Hawaiians. In 1999, 
representatives of the Departments of the Interior and Justice traveled 
to Hawaii to begin the reconciliation process, which is a continuing 
dialogue between federal representatives and Native Hawaiians to 
discuss longstanding issues resulting from the overthrow of the Kingdom 
of Hawaii.
    Public meetings were held on most islands and representatives 
visited a number of sites including Native Hawaiian charter and 
language immersion schools, educational facilities, health care 
facilities, cultural centers, hula halau, native fish ponds and 
Hawaiian homestead communities and projects. Federal representatives 
concluded Native Hawaiians have maintained a distinct community and 
certain government structures since the overthrow of the Kingdom of 
Hawaii and that Native Hawaiians continuously tried to find ways to 
manage their resources and to address the needs of their communities 
through self-governance and self-determination.
    As a result of their consultations in Hawaii, the Departments of 
the Interior and Justice published a report, ``From Mauka to Makai: The 
River of Justice Must Flow Freely,'' in 2000, which concluded:

         ``that the Native Hawaiian people continue to maintain a 
        distinct community and certain governmental structures and they 
        desire to increase their control over their own affairs and 
        institutions. As a matter of justice and equity, this Report 
        recommends that the Native Hawaiian people should have self-
        determination over their own affairs within the framework of 
        Federal law, as do Native American tribes.'' \3\
---------------------------------------------------------------------------
    \3\ Report published by the Department of the Interior and the 
Department of Justice, ``Mauka to Makai: The River of Justice Must Flow 
Freely,'' (2000) p. 4

    The report references actions taken by United States to recognize 
the rights and promote the welfare of Native Hawaiians as indigenous 
peoples. It recommends that in an effort to safeguard and enhance 
Native Hawaiian self-determination over their lands, cultural 
resources, and internal affairs, Congress should enact legislation ``to 
clarify Native Hawaiians' political status and to create a framework 
for recognizing a government-to-government relationship with a 
representative Native Hawaiian governing body.'' \4\
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
    S. 675 reaffirms the legal and political relationship between 
Native Hawaiians and the United States by providing a process for the 
reorganization of the Native Hawaiian government for the purposes of a 
government-to-government relationship. The bill is consistent with the 
recommendations made by the Departments of the Interior and Justice as 
part of the reconciliation process more than a decade ago. S. 675 is 
important to the Federal-Tribal relationship, Mr. Chairman, because it 
provides parity in federal policies addressing our nation's indigenous 
peoples.
    The terms ``Indian'' and ``Tribe'' are terms of art that refer to 
native peoples as individuals, ``Indian'' or collectively, ``Tribes.'' 
There are hundreds of different native groups with different languages, 
cultures, and traditions, who are indigenous to the United States. The 
fact that they are from different regions of the United States and 
speak different languages does not change the fact that they are 
indigenous peoples with whom the United States executed treaties, took 
lands into trust on their behalf, and has a special responsibility to 
promote their welfare through the federal policy of self-governance and 
self-determination. The reference to native groups as Indians or Tribes 
is a reflection of their status as indigenous peoples.
    S. 675 provides parity by treating Native Hawaiians equally with 
the same terminology under federal law, thereby ensuring that American 
Indians, Alaska Natives and Native Hawaiians are empowered to the same 
extent to preserve and perpetuate their cultures and languages and to 
address the needs of their communities under the federal policy of 
self-governance and self-determination. By extending federal 
recognition of a government-to-government relationship to Native 
Hawaiians and providing access to the same laws as other Indian Tribes, 
S. 675 provides the parity recommended as part of the reconciliation 
process.
    Mr. Chairman, thank you and your Committee for your tireless 
efforts over the tenure of your career in the United States Congress to 
support the Federal-Tribal relationship through self-governance and 
self-determination. Whether it has been through your support for the 
Native 8(a) program which is one of the few effective federal policies 
working to promote economic development in native communities, or 
financial literacy and access to capital for native peoples through New 
Market Tax Credits, or helping to educate policymakers about the 
importance of the federal trust responsibility and its foundation for 
so many federal policies involving native peoples, your efforts have 
created opportunities for sustained economic development for this 
Nation's First Peoples. Your mere presence as the Native Hawaiian 
Chairman of this distinguished committee is a source of inspiration for 
our youth and great pride for all native peoples. We thank you and 
pledge to ensure that your legacy will never be forgotten.

    Senator Akaka. Mahalo. Thank you very much for your 
testimony.
    Mr. Erlich, President of the Maniilaq Native Association, 
in your testimony you stated that you have been waiting for 
years for responses from the DOI regarding information on 
compacting programs within non-BIA agencies within the 
Department of Interior. Have you received any kind of feedback 
from them during that time? And if so, what has it been?
    Mr. Erlich. We have, of course, we did work out an 
arrangement with the National Park Service. We were really 
pleased with that. We have gotten some feedback or response 
from the BOM and we are actually beginning to go into pre-
negotiations with them to discuss what we might be able to 
partner with or compact with from them. But all the other 
agencies, we have not even received a response from. So, no 
feedback.
    Senator Akaka. This information on compacting programs, 
when was the inquiry made?
    Mr. Erlich. The first request for PFSAs from the agencies 
was about three years ago.
    Senator Akaka. Oh, three years. And in some cases you have 
had no response?
    Mr. Erlich. Yes.
    Senator Akaka. Secretary Head, the Cherokee Nation used 
self-governance programs to help develop its court system, its 
tax code and law enforcement systems. Can you describe the 
impact this has had on the daily life of a Cherokee citizen?
    Mr. Head. Law enforcement, the law enforcement program 
where, it has provided more safety and protection for our 
citizens living on Indian land scattered throughout the 14 
counties. Our law enforcement program works in concert with, 
and we have cross-deputizations with, county and city 
governments throughout the 14 counties of the Cherokee Nation. 
We actually even have MOUs with the U.S. Marshal's Service and 
actually have one of our Cherokee Marshals working full-time on 
the U.S. Marshal's Violent Crimes Task Force. Actually, two 
weeks one of our marshals, our marshal on that task force 
single-handedly captured a murderer that was on the loose in 
Tulsa, Oklahoma.
    Our court system has provided a sound basis for our 
economic development and a forum for disputes that go on 
throughout the Cherokee Nation. You may have heard about an 
election dispute this last fall and our court system worked 
properly. They determined that there were questions. We had 
another election and our processes worked. The election was 
concluded. Chief Baker is now seated. The controversy is behind 
us. We are moving down the road.
    But had we not had an adequate court system, it could have 
been an ongoing dispute that lasted for years. So, our court 
system is working and we fully support it and we are thankful 
for the dollars that we have received from the Department of 
the Interior for the operation of both of those programs.
    Senator Akaka. What effect has this had on tax codes?
    Mr. Head. We actually do operate a tax system through our 
enterprises that are operated on Tribal and trust properties, 
trust and restricted lands. Those dollars are collected through 
our enterprises. And we have a Tax Commission which monitors 
and operates our, we have a Tax Commission that actually 
operates the collection of taxes and ensures that smoke shops 
as well as our enterprises pay the appropriate taxes.
    Those tax dollars are put into use. We also have a car tag 
system and sell automobile tags to Tribal members living within 
our jurisdiction. Our Tax Code and our automobile tax system 
are negotiated through a tax compact with the State of 
Oklahoma. We are currently in negotiations with the State of 
Oklahoma and hope to have an agreement, they have positive news 
and hope to have our latest compact in place within two to 
three weeks. These tax dollars are put into, back into the 
coffers of the Tribe and are used to support Tribal programs. 
Some of the tax dollars go into the operation of our health 
programs. A lot of our car tag dollars go, each year we provide 
back to the school systems, the local school systems, operated 
by the local entities in our counties. We provide, this last 
year we provided almost $4 million back to those school systems 
with no strings attached because a lot of our Cherokee citizens 
go those local schools.
    So, we are using those taxes to support not only our 
program operations but to give back to the local and State 
governments of Eastern Oklahoma.
    Senator Akaka. Thank you very much.
    Ms. Kalipi, President of the TiLeaf Group, can you give a 
few examples of how community progress and Native Hawaiian 
self-determination has been hampered without a government-to-
government relationship?
    Ms. Kalipi. Thank you, Senator. I think the bottom line in 
terms of community examples is the fact that within the current 
framework that we operate, without the Federal Government-to-
government relationship, Native Hawaiians are unable to 
exercise self-rule and are unable to manage their resources. A 
clear example is, for example, the Department of Hawaiian Home 
Lands which, as a condition of Statehood, the State agreed to 
administer the Federal Hawaiian Homelands Trust. It has created 
a State agency, the Department of Hawaiian Home Lands. The 
Department commissioners are, the Hawaiian Homes Commission are 
appointed by our governor and have a responsibility to 
administer the trust. At the same time, their director, their 
chairman, is a member of the governor's cabinet.
    While there is great intention to manage these resources on 
behalf of Native Hawaiians, at the end of the day the resources 
are being managed by the State and their loyalties are often to 
the State. And there are little means for the Native Hawaiians 
who are the beneficiaries to effectively hold these officials 
accountable.
    That is one example. Another example is, at the community 
level we have a lot of services provided by non-profits and, in 
a similar way, there is a lack of effective coordination of 
services because we have a lot of different entities trying to 
work on behalf of Native Hawaiians and within Native Hawaiian 
communities.
    So, the bottom line is that without a government-to-
government relationship, we do not have, and we are challenged 
in how we coordinate our services. A government-to-government 
relationship would make things much more effective and would 
allow us to manage our resources in a way that better meets the 
needs of our people.
    Senator Akaka. Thank you very much for your answers here.
    I would like to call now on our favorite from Alaska, 
Senator Murkowski, for any questions or statement she would 
like to make, too.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Well, Mr. Chairman, thank you. I 
appreciate the opportunity for the hearing. Good discussion.
    I welcome my constituent, my friend, Ian Erlich, who, this 
is not his first time before the Committee as President of 
Maniilaq. He has been here on other occasions and I think has 
provided our Committee with good information. His leadership is 
greatly respected within the State and I think it is fair to 
say that when he comes back here to Washington, that respect is 
also accorded. So it is good to welcome him back.
    I will also add that in addition to being a leader on the 
issues that we are talking about today with self-governance and 
self-determination, he has been one who has been working with 
us to address the issue of youth suicide, an issue that we hear 
about far too often in this Committee where, unfortunately, we 
see higher numbers, American Indians, Alaskan Natives takings 
their lives at an early age and unfortunately far too many of 
our young men. And so, this is an area that Ian has led and I 
appreciate all your efforts in that area.
    A couple of different issues have been raised. Certainly 
the issue of sequestration and, Mr. Chairman, there has been a 
lot of discussion around the Capitol here about the impact of 
sequestration. And it seems that there has been a pretty 
coordinated effort to talk about the impact of sequestration on 
the defense side of the budget, I have great concerns about 
what that would do to us, but probably less discussion about 
what is happening on the discretionary side of the budget and 
in those areas where I think we see immediate and perhaps even 
dramatic negative impact, in some of the IHS, the BIA accounts. 
And if you are talking about an 8.2 percent cut or a 10 percent 
cut, it is, it potentially has dramatic negative impact.
    You mentioned contract support costs and what that means, 
whether you are up in Alaska or part of the Cherokee Nation. I 
think our reality is that we have chronically underfunded 
contract support costs. We are starting to make a little bit of 
headway. I serve as the Ranking Member on the Interior 
Subcommittee of the Appropriations Committee and we are making 
a very concerted effort to increase the funding for contract 
support costs.
    But if we move toward sequestration, or that, if the hammer 
comes down and sequestration is in place, not only do we not 
make any progress, we are going backwards here. And we cannot, 
we simply cannot afford to do that. It really abrogates the 
contracts, the terms of the deal that we have a responsibility 
to respect.
    So, I am concerned that as we deal with the fiscal issues, 
as we all talk about this impending fiscal cliff that we are 
dealing with, we need to understand what it will mean in 
certain areas and certainly within IHS, BIA. I am very, very 
concerned about what we may see here.
    Mr. Erlich, I wanted to ask you specifically about the 
Village Built Clinics. We have had a chance to talk about this 
in the past, your comments that IHS has been unresponsive to 
the requests to fund the VBCs. Can you give me just a little 
more detail in terms of what exactly IHS has said in their 
conversations to you? You know, how frequent those 
conversations have been? It seems to me that there is just kind 
of a deaf ear on this issue, so I would like you to explain a 
little bit more for the record what you understand IHS' 
position has been on this.
    Mr. Erlich. Thank you, Senator Murkowski. Well, first of 
all in Alaska, the way we negotiate with IHS is we have a 
Statewide Tribal Health Compact. And all the cosigners for that 
compact agreement out of Alaska have been dealing with this 
issue at our annual negotiations with IHS for a number of 
years, as well as when we come here to Washington to meet with 
the Director for IHS. The issue is raised repeatedly because it 
is a real serious problem that the Alaska Tribal health 
organizations have to supplement with direct care dollars just 
to keep the village clinics operable.
    The response that we have received consistently from IHS is 
that beyond the funding that is provided for in the hospital 
and clinics, there are no other funds available. And so, 
because this is an Alaska-specific issue, it is hard to, I 
imagine, find a way to fund a line item like Village Built 
Clinics while it is sitting under hospital on clinics.
    So, we have suggested several times that we put a line item 
in the budget for Village Built Clinics, but we have not gotten 
a response back from the IHS.
    Senator Murkowski. Is it fair to say that they, that IHS, 
recognizes that in Alaska you have a got a different situation 
up there and that it is important to recognize that there is a 
distinction and that it might be appropriate to allow for a 
line item there? I know that we are not in the days of earmarks 
anymore, but again, you have got one-half of the Tribes in the 
Country located in the State of Alaska and we have got a 
situation here that is unique to one State. I guess I am asking 
if you believe that they understand that there needs to be a 
different approach.
    Mr. Erlich. I think they understand the issue and I think 
you hit the, you got it right on when you talked about 
earmarks. I think the agency does not want to appear to be 
requesting for something that would be looked on as an earmark.
    And so we find ourselves kind of in a Catch 22 where the 
agency says you have to go to Congress to get an appropriation 
and then, well, oftentimes Congress says we cannot do an 
earmark. And so, we are kind of going back and forth and not 
making any progress on this issue.
    Senator Murkowski. Mr. Chairman, I probably do not need to 
tell you about it but not only do we have half the Tribes in 
the Country in Alaska, we are a State that is one-fifth the 
size of the United States of America. So, it would be as if you 
are telling the, I guess it is the Seminoles in Florida, you 
are going to be dealing with Tribes out in California and you 
are saying well, we cannot do anything because it is an earmark 
here.
    We are pretty big and our issues are oftentimes a little 
bit distinct. And it makes it very difficult when our system 
does not allow for us to address from a budget perspective some 
of the issues. And I think what we are running up against 
within the Village Built Clinics is just further example of 
that.
    I recognize that these are difficult budget times, but I 
think we also need to recognize that we have got to be working 
a little bit creatively here. And I am frustrated that we have 
not had the folks within the Administration willing to work a 
little more creatively on this one.
    So, we are not going to give up on it, as I hope that you 
will not. But it is a little bit discouraging.
    Mr. Chairman, again I thank you for the panel today, for 
what they have contributed to us. And I will also note that 
this will probably be our last Indian Affairs Committee 
meeting. Is that correct, before the end?
    And your Chairmanship, sir, has been greatly appreciated. I 
appreciate your leadership not only on the Committee but on so 
many different issues whether it relates to our indigenous 
peoples from Hawaii, Alaska, the American Indians around the 
Country, but also all that you do for Federal employees, for 
all that you do for our veterans. Your leadership has been 
greatly, greatly appreciated and certainly admired. So, thank 
you.
    Senator Akaka. Thank you very much, Senator Murkowski. It 
certainly has been a pleasure for me to work with you for all 
these years. And not only with you, but with your family and 
your dad as well when he was Senator preceding her. And the 
Murkowskis have been such close friends to Millie and me and we 
cherish that. And we will always do that. So, please carry my 
aloha and love to your family, please. Thank you.
    I have just three questions, one for each of you. Mr. Head, 
Secretary, you mentioned a recent Supreme Court victory for 
Tribes in the Ramah case and how this victory will likely lead 
to hundreds of Tribes, and I am asking you this because you 
mentioned that recent Supreme Court victory on that Ramah case 
and how this victory will likely lead to hundreds of Tribes 
filing thousands of claims. In your opinion, would a negotiated 
settlement be in the best interests of all parties?
    Mr. Head. Absolutely. The process of filing claims, some 
Tribes, the Cherokee Nation is a sizeable organization. It 
would be easier for us to go back and restructure and pull out 
information to adequately support our claims. Other Tribes are 
not as large and do not have the capacity that we do and might 
have a harder problem being able to do, to go back in time and 
recreate that information to support a claim.
    Therefore, it would be simpler, less time consuming and 
more efficient for a negotiated settlement for all, including 
the United States.
    Senator Akaka. Well thank you. Thank you for that response.
    Ms. Kalipi, can you describe, describe how the existence of 
a Native Hawaiian government might facilitate consultation and 
enhance ability of everyone to comply with laws like the Native 
American Graves Protection and Repatriation Act, or to develop 
better programming for the benefit of Native Hawaiian people?
    Ms. Kalipi. Thank you, Senator. A Native Hawaiian 
government would improve efficiency through coordination of 
resources and services. I like to think of it kind of a like a 
one-stop shop. Right now, we have a number of different 
organizations and as I have referred to State agencies doing 
the best that they can for Native Hawaiians under the framework 
that we have.
    But, in processes such as, for example, the Native American 
Graves Repatriation Act, it is difficult for the agencies to 
seek input from the community because they have to go to so 
many different places. And it is difficult for Native Hawaiians 
themselves to figure out how to provide input as well.
    When we have a Native Hawaiian government and a place to 
coordinate these programs, services and consultations, then 
everyone will know how to communicate. So, it improves the 
ability to have consultations and it increases efficiency and 
coordination of services.
    Senator Akaka. Well, thank you very much. Mahalo for your 
response. Thank your very much.
    I would like to ask the panel this last question. Can you 
please discuss the role culture plays when administering 
essential government services to Tribal citizens and Native 
communities? How important is culture to the exercise of self-
governance?
    So, that is my question and you can feel free to expound on 
this because I have always felt that culture should be playing 
a huge part in what happens to the groups. So, I just want your 
, your thoughts on this. Mr. Erlich?
    Mr. Erlich. Thank you, Mr. Chairman.
    Well, I think that probably the easiest way to summarize, 
in my estimation, the importance of culture in administering 
Federal programs in place of the Federal Government for Tribal 
members is about getting the most bang for your buck. Any time 
that programs that are intended to benefit recipients can be 
tailored to those recipients specifically you are more likely 
to have positive outcomes.
    And so, as culture is applied in considering what 
techniques to apply to certain programs or what kinds of 
benefits, as the culture is applied, it brings about a greater 
sense of well-being for the recipients that are receiving those 
dollars and it reduces a lot of hard feelings that could come 
from maybe some requirements that a program applies towards its 
recipients that make little sense to those who are intended to 
be receiving assistance.
    And so, culture is a way to promote well-being and as you 
can apply it to programs and services for the Tribal members, 
it promotes a more efficient and effective way of using those 
Federal dollars.
    Senator Akaka. Thank you very much. Secretary Head?
    Mr. Head. Looking at it from a slightly different angle, 
Native peoples, at least in our part of the Country, are kind 
of shy. And when you and I go out into the local bureaucracy to 
take care some business, we run into some hardships and some 
difficulties, we stick to it, we stick to our guns and we stay 
with it until get an answer.
    Native peoples often are rebuffed. When they go to the 
State, DHS or different organizations, they run into the 
bureaucracy, they will turn around and leave and they might not 
go back and they will miss out on very important services.
    Native peoples, at least in our part of the Country, do not 
have that prohibition when they are dealing with their own 
Tribe. They will come in and give me the dickens when they want 
me to know about something. So, that is a benefit that our 
culture provides is that our Tribal members like to deal with 
their own Tribe, with their own peoples. And that improves the 
services.
    The other part is strict democracy that makes programs work 
is that in culture is that our elected officials, if our 
elected officials do not cause programs to be run efficiently 
to provide services, they do not get reelected. So, that is 
another benefit that democracy at the local level provides to 
improve services. And that is another reason to support self-
governance.
    Senator Akaka. Thank you very much. Ms. Kalipi?
    Ms. Kalipi. I think culture is vitally important and 
underscores the necessity of self-rule and self-governance. In 
order to manage resources and coordinate services 
appropriately, you need to be able to understand your people. 
Understanding the language, the customs and the traditions of 
the people that we serve in their language, in their way, helps 
us to assess what their needs are.
    It is very difficult to coordinate services and programs if 
we do not know how to reach the people that we are trying to 
work with and if we do not have effective avenues of them being 
able to provide input and decision makers being held 
accountable for the way resources are managed and services are 
provided.
    So, in addition, in the actual provision of the services, 
culture plays a vital role in how best to, again, meet the 
needs. For example, in healthcare, in some cultures we do 
things with our family and so if we go to the doctor we want 
our family with us, whereas in other systems you go as an 
individual and there is privacy laws. Recognizing the holistic 
nature, for example, of having your family with you can help 
with the healing process and recognizing Native customs and 
alternative forms of healing, for example, like La'au Lapa'au 
in Hawaii, can better help that as well.
    So culture, if you have a Native government that 
understands that and sees the value of that, then the culture 
and tradition, language and customs are considered in the 
management of the resources and the coordination of services, 
and we can better serve our people.
    Senator Akaka. Well, thank you very much. You have been 
great in responding to all questions and it certainly will be 
helpful in the way we approach the future of all our Tribes in 
this great Country and in the best interest of the people.
    So, I want to thank you very much for your contributions 
today and to tell you that this will be helpful to the 
Committee.
    And I want to take the time to thank our staffs for the 
hard work that they do here in the U.S. Senate to bring about 
all activities that we have had in the Committee on Indian 
Affairs. And I must tell you I am really grateful to all of the 
members of the staff and their leaders in bringing this about.
    We have made efforts here to listen to the Tribes and to 
hear them and hear especially their needs so that we can begin 
to help them from that angle. And, of course, I always believe 
as you do, that to me culture is like a tree. If you cut the 
tree from the roots, which is a culture, you know, there is a 
huge loss of something. And that culture or the roots is what 
makes it thrive.
    And so, we can handle that in different ways as times 
change. But it is basic. And I am so glad that we are moving 
along as we are and refining the courses that we are taking so 
that we can properly help the people we serve.
    I want to thank our witnesses for participating in today's 
hearing. And as you know, today we discussed the importance of 
respecting the inherent sovereignty of Tribes and their ability 
to be self-governing and how parity in Federal policy is key. 
We have learned that great things can happen when the Federal 
Government embraces the Native right of self-determination and 
implements programs that empower Native peoples to deliver 
Federal service and manage their own affairs.
    So please remember the hearing record is open for written 
testimony for two weeks to give the opportunity to other 
members of this Committee to send any questions they may have 
for a hearing like this.
    So again, mahalo nui loa, thank you very, very much for 
your time and your care and your willingness to help all people 
and its great future that there is ahead.
    This hearing is adjourned.
    [Whereupon, at 4:12 p.m., the Committee was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. W. Ron Allen, Tribal Chairman/CEO, Jamestown 
   S'Klallam Tribe and Chairman, Self-Governance Advisory Committee, 
                       Department of the Interior
    On behalf of the Department of the Interior (DOI) Self-Governance 
Advisory Committee (SGAC), I appreciate the opportunity to submit 
written testimony for the record. The focus of this testimony is to 
provide comments on a very important priority issue for the over 260 
DOI Self-Governance Tribes regarding the historical impacts and 
calculation of Pay Costs under the Indian Self-Determination and 
Education Assistance Act (ISDEAA).
Background on Pay Costs
    Under the ISDEAA, Tribes have the authority to assume programs 
previously operated and carried out by Federal employees. Most Federal 
agencies receive annual increases for Fixed Costs to address 
inflationary costs associated with Fringe Benefits and Pay Costs. The 
Congress has regularly encouraged the Administration to fully fund 
Fixed Costs and to treat and calculate Pay Costs for Tribes operating 
under ISDEAA Self-Determination contracts and Self-Governance Compacts 
in the same manner as Federal employees.
    However, guidance within the Department of the Interior--Indian 
Affairs on how Tribal Pay Costs are calculated and which programs are 
eligible has not been effectively communicated to the Tribes and is 
inconsistent across the Bureau of Indian Affairs (BIA) Regions. 
Further, concerns have been expressed by the SGAC about the way Pay 
Cost information is collected.
Failure to Fully Fund Pay Costs Severely Impacts Self-Governance Tribes
    Historically, Tribes have been disadvantaged because they have 
never received full Pay Cost adjustments provided to BIA programs 
because the BIA excludes many types of Tribal salaries from their Pay 
Cost calculations. Further, since FY 2002, the Administrations' annual 
budgets have fully funded Pay Costs just one time (FY 2008). For 
Tribes, the impact from the failure to fully fund Pay Costs has been 
the loss of critically needed jobs. SGAC estimates that over 900 Tribal 
jobs have been lost and approximately 300 more jobs will be permanently 
lost on an annual basis if 100 percent Pay Costs are not provided. In 
addition, the reduced ability of Tribes to provide competitive salaries 
and benefits results in excessive costs of training and frequent staff 
turnover. These Tribal losses are being further exacerbated by recent 
projections of Pay Cost needs that have been significantly 
underestimated.
    The SGAC believes that it is inequitable to expect Self-Governance 
Tribes to be able to perform compacted functions while receiving less 
funding for Fixed and Pay Cost increases than provided to the BIA and 
other Federal agencies. Unless these costs are fully funded for all 
compacted Tribal salaries, Tribes are forced to reduce services, or 
absorb these cuts and eliminate more jobs.
    As an example of the financial impact to Tribes from the failure to 
fully fund Pay Costs, the Red Lake Band of Chippewa Indians testified 
before this Committee in 2006. At that time, they estimated these Pay 
Cost cuts resulted in permanent recurring funding reductions of 
approximately $600,000-$800,000 annually. Today, their loss stands at 
greater than $900,000 each year, and a total loss of $6.6 million since 
FY 2001. For all Tribes, the impact of these Pay Cost reductions over 
the past 10 years has resulted in severe loss of funding for critical 
Self-Governance programs such as law enforcement, housing, education, 
natural resources and social and family services to Tribal citizens.
Recommendations to Restore Equitable and Fair Treatment of Pay Costs 
        for Tribes
    Full funding of Tribal Pay Costs has been identified as a top Self-
Governance budget priority for the over 260 Self-Governance Tribes and 
has been included in our Annual National Tribal Self-Governance 
Strategic Plan for many years. Self-Governance Tribes have worked 
actively with other National and Regional organizations as well as with 
the Indian Affairs' Tribal Interior Budget Council (TIBC) to advance 
this priority.
Conclusion
    Pay Cost increases are essential to advance Self-Governance. We 
respectfully request this Committee to strongly urge the BIA to 
calculate Pay Costs for all compacted Tribal salaries in a consistent 
manner across the BIA Regions to include guidance, timeframes, and 
methodologies for data collection. There should be coordination between 
BIA and the Tribes to identify whom at the Tribal level the data 
request should be sent, and adequate time should be provided for data 
submissions. Finally, we urge that the Indian Affairs budget submission 
should include equitable and full Pay Cost increases for Self 
Governance Tribes and include an Appendix that provides a Tribal 
breakout of the Pay Cost request.
    In closing, we thank the Committee for the opportunity to provide 
testimony on this very important issue for Self-Governance Tribes. We 
appreciate the inclusion of the testimony and recommendations in the 
record for this hearing. Thank you.
                                 ______
                                 
Prepared Statement of Hon. Leonard Masten, Chairman, Hoopa Valley Tribe
    The Hoopa Valley Tribe currently has 3,006 tribal members and the 
largest reservation in California, covering approximately 144 square 
miles. We were among the first tier of self-governance tribes, having 
participated in the demonstration project, and the first in the nation 
to have its compact with the United States signed. Through Self-
Governance we have been able to leverage federal dollars to fund our 
programs, all of which serve as a means to exercise our sovereignty, 
preserve, protect and manage our trust assets, and provide services and 
benefits to our members.
    We are grateful for the opportunity to provide our views for the 
record on advancing the Federal-Tribal Relationship through Self-
Governance and Self-Determination. Our testimony focuses on the 
successes of Self-Governance and next steps to further its objectives.
Self-Governance
Background
    In setting forth the policy of self-determination, President Nixon 
stated:

         [We] have turned from the question of whether the Federal 
        Government has a responsibility to Indians to the question of 
        how that responsibility can best be fulfilled. We have 
        concluded that the Indians will get better programs and that 
        public monies will be more effectively expended if the people 
        who are most affected by these programs are responsible for 
        operating them.

         President Nixon, Special Message on Indian Affairs, July 8, 
        1970. He also said that ``The time has come to break decisively 
        with the past and to create the conditions for a new era in 
        which the Indian future is determined by Indian acts and Indian 
        decisions'' and that ``. . . the Federal Government needs 
        Indian energies and Indian leadership if its assistance is to 
        be effective in improving the conditions of Indian life.'' 
        Nixon Special Message.

    The Indian Self-Determination and Education Assistance Act 
(ISDEAA), 25 U.S.C.  450 et seq., allows tribes to contract with the 
United States to take over administration of programs carried out by 
the Federal Government, facilitating tribes' planning and administering 
of programs to govern their lands and provide for their members. The 
Tribal Self-Governance Act of 1994, 25 U.S.C.  458aa et seq., allows a 
tribe to enter into a compact with the United States for all programs 
the tribe assumes. Self-Governance allows tribes more flexibility in 
the administration, design and consolidation of programs and in the 
allocation of funding among programs. A correct tenet of Self-
Governance is that tribes, themselves, are best-suited to know their 
needs and the needs of their members and how best to address them.
    Through Self-Governance, Indian Country has experienced many 
dynamic and pioneering changes over the last few decades. Self-
Governance tribes have progressively moved to stabilize funding bases, 
improve and expand services at the reservation level, and increase 
staffing and technical capabilities. Tribes have been able to 
strengthen tribal government and establish administrative capability. 
Through Self-Governance, tribes have become effective partners with the 
United States, working together to positively address and resolve 
decades of backlogged trust management issues.
    Self-Governance spurred an important transition from bureaucratic 
one-size-fits-all, federally-dominated programs to flexible tribally-
designed and administered programs. Tribes are in the best position to 
determine what is needed by, and how to provide for, their governments 
and members. Prior to Self-Governance, there was a lack of tribal 
participation in designing programs and setting agendas. Instead, there 
was a reliance on federal-project planning and the federally-developed 
programs were not only chronically under-funded, they did not meet the 
on-the-ground needs of Indian people. Self-Governance affords tribes 
the opportunity to take over the planning and development of these 
programs, and since the programs become based on the priorities and 
needs of Indian communities as determined by the tribes, they work.
Self-Governance Does Not Diminish the United States' Trust 
        Responsibility
    The United States' trust responsibility is not diminished in any 
way in the context of self-governance,

         Nothing in this subchapter shall be construed to diminish the 
        Federal trust responsibility to Indian tribes, individual 
        Indians, or Indians with trust allotments.

        25 U.S.C.  458ff(b) \1\
---------------------------------------------------------------------------
    \1\ 25 U.S.C. 458aaa-14(b)(Nothing in this subchapter shall be 
construed to diminish in any way the trust responsibility of the United 
States to Indian tribes and individual Indians that exists under 
treaties, Executive Orders or other laws and court decisions.'')

    To the contrary, the trust responsibility is carried out in part by 
supporting and promoting tribal self-governance. The Secretary 
encourages tribal self-governance by entering into funding agreements 
with tribes ``consistent with the Federal Government's laws and trust 
relationship to and responsibility for the Indian people.'' 25 U.S.C.  
---------------------------------------------------------------------------
458cc. As Cohen's Handbook explains:

         . . . the law reaffirms Congress's ``commitment to the 
        maintenance of the Federal Government's unique and continuing 
        relationship with, and responsibility to individual Indian 
        tribes and to the Indian people as a whole.'' This commitment 
        is expressed by support for Indian ``planning, conduct, and 
        administration'' of ``quality programs'' for Indians.

        Felix S. Cohen, Handbook on Federal Indian Law, 1387 (2012 
        Edition).

The Hoopa Valley Tribe and Self-Governance
    Self-Governance has allowed our Tribe the flexibility to design and 
manage our own programs. It has been a success for us. This is not to 
say that Self-Governance is easy. Self-Governance is government, and 
performing the functions of government is hard work. Before Self-
Governance, we contracted most BIA programs under the Indian Self-
Determination Act. Yet, we were frustrated with the short-comings of 
93-638 contracting, the inflexibility of BIA-designed programs and the 
reality that needs on the ground were still not being met. With this, 
we embarked on Self-Governance and have not looked back. In the 
beginning, it was hard work to develop our governmental and 
administrative structure, but we did, adopting more than seventy 
ordinances, stabilizing our funding base, improving our governmental 
capabilities and charting a course for our future.
    Currently, we manage more than 50 programs which cover the entire 
spectrum of issues. Early on, we compacted forestry management and have 
been managing our forest lands independently under a forest management 
plan that exceeds environmental standards required by federal law and 
incorporates our values and priorities. Our Forestry Department has 
received exemplary trust evaluations from the BIA's Pacific Regional 
Office (PRO). We also own and operate our own logging company and 
nursery, and, as a part of our forestry management, we created our own 
Wildland Fire Protection Program through which we assumed the Federal 
Government's wildland fire functions and services. Our tribal 
firefighters meet the same qualification requirements of the United 
States Forest Service and the California Division of Forestry. In fact, 
our tribal firefighters are dispatched across the country to fight fire 
on state, federal and tribal lands. Our program is considered by the 
BIA and other tribes to be a model for Indian Country. Additionally, 
when we assumed forestry management, we also took over the BIA roads 
department, a successful program through which we have been able to 
leverage monies from our timber sales, aggregate plant and other 
sources with our federal funding to pay for road maintenance and 
upgrading.
    We have our own Fisheries Department that monitors in-stream 
habitat and salmon populations in the Trinity River basin. This is a 
well-respected program that contracts with the Bureau of Reclamation 
and the Fish and Wildlife Service to carry out river restoration 
functions. We are also proud of the fact that Hoopa was the first to 
compact health care with the Indian Health Service (IHS) in California, 
and now has a hospital, a dental clinic, and the only ambulance service 
and emergency room within about 80 miles of the Reservation and the 
next nearest hospital. Further, we have a Police Department which 
entered into an historic cross-deputization agreement with Humboldt 
County to provide comprehensive police protection and law enforcement 
on our Reservation. While additional funding is desperately needed, 
particularly given the unique situations we face with combating illegal 
marijuana cartels on our lands, we are carrying out law enforcement 
services.
    We also compacted realty from the BIA regional office. Further, we 
created a Public Utilities Department that has worked on a Reservation-
wide water system and continues to work on Reservation-wide irrigation 
and sewer systems which are needed to serve our community. We also have 
our own Tribal Environmental Protection Agency (TEPA) which ensures 
that our resource management programs perform in compliance with 
Federal EPA regulations. TEPA monitors and enforces air and water 
quality standards set by the Tribal Council and is also responsible for 
enforcing the Tribe's solid waste ordinance. We also have a housing 
authority, a human services department and an education department that 
covers preschool to a junior college branch campus.
Benefits of Self-Governance
Programs
    Through Self-Governance we provide a range of services to our 
people, have spurred economic development on our Reservation, and 
ensure quality management of our trust resources. We have been able to 
successfully administer our many programs by establishing a solid 
governmental and administrative structure. We are a government of laws, 
ordinances and procedures. We believe this is essential for Self-
Governance and successful program administration. However, it must be 
recognized that the ISDEAA includes opportunities for all tribes to 
plan programs or portions thereof. With this, a tribe that does not 
want to assume carrying out the program itself can nevertheless 
participate in the planning and design of the program so that its 
values and priorities are incorporated into the program. We believe 
that programs are stronger and better-suited to meet the needs of a 
tribe and its members, lands and assets when the tribe is involved in 
the development and design of those programs.
Economic Development
    Self-Governance also sets a foundation for economic development. It 
requires advanced governmental and administrative structures which are 
also needed for conducting business on the Reservation and attracting 
business to the Reservation. As part of our governmental structure, we 
have a comprehensive business code which tells potential business 
partners that we are a government of laws that is interested in and 
open to business. Further, Self-Governance allows tribes to be flexible 
in their programs, which can spur economic development. For example, 
our Forestry Department operates its own logging company, which creates 
employment and our forest management plan allows our timber to be 
``Smart Wood'' certified which allows lumber products produced from our 
timber to be exportable overseas, creating increased value and revenue 
from our timber sales. Notably, Stephen Cornell and Joseph Kalt, co-
founders and co-directors of the Harvard Project on American Indian 
Economic Development, cited a 1994 Krepps and Caves study that found 
for every timber-related job that moved from BIA forestry to tribal 
forestry, prices received and productivity in the tribe's timber 
operations rose; this underscored their point that ``Native nations do 
a better job of managing their forests because these are their 
forests.'' \2\ They went on to conclude that the premier programs and 
projects in Indian Country are initiatives of self-government that put 
tribes in control of major community and economic development 
decisions. \3\ They said that after twenty years of research they could 
not find ``a single case of sustained economic development in which an 
entity other than the Native nation is making the major decisions about 
development strategy, resources use, or internal organization.'' \4\ 
They stated that practical sovereignty or self-rule, meaning 
decisionmaking authority or self-governance, appears to be a necessary 
condition for a Native nation's economic development. \5\
---------------------------------------------------------------------------
    \2\ Stephen Cornell and Joseph P. Kalt, Two Approaches to 
Development of Native Nations, One Works, the Other Doesn't, in 
REBUILDING NATIVE NATIONS, 21-22 (Miriam Jorgensen ed. 2007).
    \3\ Id. at 22.
    \4\ Id.
    \5\ Id.
---------------------------------------------------------------------------
Leveraging of Funds which Helps Tribes and the United States
    Benefits of Self-governance flow not only to tribes and their 
members, but to the United States as well. Tribes are superb partners 
for the United States. A benefit of major importance in Self-Governance 
that gets little attention is how it has helped to generate additional 
funding for carrying out underfunded federal programs. The chronically 
underfunded Indian programs within the BIA and IHS budgets have been 
well-documented over the past several decades. Many tribes hesitate to 
assume federal programs under Self-Governance because they understand 
there is not adequate money to support the tribe in carrying out the 
functions of the programs that the tribes want to administer. However, 
while Self-Governance is an authorizing law--not an appropriations 
law--it gives tribes the ability to generate significant additional 
dollars to help offset the cost of carrying out trust activities. At 
Hoopa, we can show that the Tribe matches $3.00 from other sources for 
each $1.00 compacted from the BIA that is used for trust management 
programs. This is a significant benefit not only for our programs and 
tribal members we serve, but for the United States too which carries, 
per the federal trust responsibility, an ultimate responsibility of 
providing for and protecting the Tribe. A part of the United States' 
trust responsibility in the context of Self-governance is to support 
tribal programs and facilitate compacting with tribes. We believe Self-
Governance results in more robust, better-funded and more tailored 
programs than what the United States could design or administer on its 
own. The United States should recognize the economic benefit of Self-
Governance and seek ways to work with tribes to further and foster 
Self-Governance.
    We emphasize, however, that the United States still has a 
responsibility to ensure adequate funding for programs that serve 
tribes and Indian people. Most of these programs, if not all, are 
woefully underfunded. Again, Self-Governance does not diminish the 
federal trust responsibility in any way. With this, Self-Governance and 
its ability to facilitate leveraging of funds does not relieve the 
United States from adhering to its trust responsibility to provide 
sufficient funding levels for programs. When developing its annual 
budgets, the Federal Government must ensure that the funding needs of 
Self-Governance tribes are met and that as needs increase, such as for 
infrastructure development necessary to carry out programs, that 
funding levels increase as well. Self-Governance should be seen as the 
springboard for economic development that it is and should be fully 
supported and funded by the Federal Government.
Advancing the Federal-to-Tribal Relationship through Self-Governance
    Another benefit of Self-Governance is the ability to redefine the 
working relationships between tribes and the Federal Government. The 
Hoopa Tribe has enjoyed a solid working relationship with the BIA PRO 
for more than a decade. In 1997, Hoopa and six other California tribes 
established the California Trust Reform Consortium. It was created to 
work with the PRO to address the trust resource management issues from 
which many of the claims made in the Cobell litigation were based. In 
1998, the Consortium and the PRO entered into an agreement that 
established the terms, conditions and operating procedures for the 
Consortium. The ability to develop a new working relationship with the 
PRO was made possible by the flexibility created by Self-Governance. 
The agreement defines the management roles and responsibilities of the 
PRO and the tribes. It includes provisions for a funding process 
through the PRO; a joint oversight advisory council; a process for 
developing ``measurable and quantifiable trust management standards;'' 
methods for resolving disagreements and disputes; and finally, a 
participatory process for annual trust evaluations. This unique working 
relationship has worked well for years. It advanced the Federal-Tribal 
relationship for us and Consortium member tribes.
    When the Department of Interior launched its trust reform 
initiatives in the early 2000s, we took action on the foundation that 
what was working in Indian Country regarding trust resource management 
should not be changed, it should be preserved. We created the Section 
139 Trust Reform Demonstration Project with the Consortium, the Salt 
River-Pima Maricopa Indian Community, the Confederated Salish and 
Kootenai Tribes and the Chippewa Cree Tribe of the Rocky Boy's 
Reservation. The Demonstration Project authorized the tribes' 
successful trust asset management systems to operate separate and apart 
from Interior's trust reform reorganization, and prevented Interior 
from imposing its trust management infrastructure upon or altering the 
tribes' existing trust resource management systems. The tribes had to 
carry out their responsibilities under the same fiduciary standards as 
those to which the Interior Secretary was held and had to demonstrate 
to the Secretary's satisfaction that they had the capability to do so.
    We, along with the other Section 139 tribes, underwent an 
evaluation by the Office of Special Trustee and received a 
determination that we had the capability to perform compacted trust 
functions under the same fiduciary standards to which the Secretary is 
held. Hoopa was cited as ``an excellent example of trust 
administration, in furtherance of tribal self-determination.'' Section 
139 confirmed that local tribal decisionmaking and cooperation from the 
Federal Government can result in significant trust management 
improvements and that tribes can properly implement trust management 
even though they may use different practices and methods than Interior. 
Key to our success in this regard is our self-governance. It allowed us 
to advance the Federal-Tribal relationship to a different level, one 
where our systems were recognized as an example of excellent trust 
administration and the Federal Government's new structures were not 
needed to improve them.
    Preserving what is working in Indian Country is our mission along 
with a forward-looking approach to improving Self-Governance to advance 
and fulfill its objectives.
Next Steps for Advancing the Federal-Tribal Relationship through Self-
        Governance
    The United States should acknowledge that tribal governments are 
great partners and that Self-Governance has provided myriad benefits to 
tribes, tribal members and the United States, itself. We are pleased 
with Deputy Assistant Secretary Larry Roberts' testimony in this 
hearing which states that this Administration supports tribal self-
determination and that it believes that ``tribal leadership is critical 
in facing and solving the problems of today, and that Native Americans 
must have a voice in programs and government efforts which are 
important to their lives.'' We appreciate the support and agree with 
the statement. However, more must be done to further Self-Governance as 
we reflect on past successes and look ahead on how to create the 
future. Non-BIA mandatory programs, the Indian Trust Asset Management 
Demonstration Project, and extending Title V Self-Governance to other 
agencies within the Department of Health and Human Services would 
advance the Federal-Tribal relationship in the correct and necessary 
direction.
Non-BIA Mandatory Programs
    An area of major interest for our Tribe is compacting non-BIA 
programs. Title IV of the ISDEAA (the Tribal Self-Governance Act, 25 
U.S.C.  458aa et seq.) should ensure that non-BIA programs are 
mandatory for compacting. The trust responsibility is an obligation of 
the United States not just the BIA. All federal agencies that perform 
functions that impact trust resources or tribal rights have a trust 
obligation to protect those resources and rights. Self-Governance 
affords tribes the ability to ensure trust resources and tribal rights 
are protected through compacting. We strongly feel that this ability 
should be extended to other federal agencies on a mandatory basis 
without the discretion of the Secretary.
    The Tribal Self-Governance Act provides for compacting non-BIA 
functions in  403(b)(2) and (c) of Pub. L. 93-638. Mandatory 
compacting is required only as to services ``otherwise available to 
Indian tribes or Indians,'' while discretionary compacting extends also 
to programs of special geographical, historical, or cultural 
significance to the tribe. The courts have limited mandatory compacting 
to programs specifically targeted to Indians. Thus, Interior has 
interpreted programs directed to improving trust resources, such as 
fish harvests, as falling outside of `638 compacts because they have 
collateral benefits to non-Indian fishing interests unless the non-BIA 
agency, in its discretion, chooses to include them.
    A primary and important example of the problem concerns our 
federally-reserved fishing rights in the Trinity River which flows 
through the Hoopa Reservation. The Bureau of Reclamation operates the 
Trinity River Division of the Central Valley Project. The Trinity Dam, 
completed in 1964, was the primary reason for 80 percent declines in 
the Trinity River fishery resources, and has been the subject of 
numerous congressional and court actions associated with violations of 
the United States' trust obligations to the Tribe. To correct the 
declines in fishery resources, Congress passed various federal laws 
that mandated restoration of the Trinity River fishery resources as 
part of the Federal trust obligations to the Tribe.
    The problem is that funding and management for Trinity River 
habitat restoration may jeopardize a trust resource and threaten our 
federally-reserved fishing rights. The Hoopa Tribe is recognized by law 
as a co-manager of the Trinity River Fishery. We have worked tirelessly 
for years to obtain congressional action to address inadequate funding 
levels for the Trinity River Restoration Program. We have also sought 
to carry out more functions related to river restoration. Reclamation, 
however, determined that the programs that are mandated by Congress to 
fulfill the trust obligations of the United States to our Tribe are not 
``Indian Programs'' under the Self-Governance Act. Reclamation does not 
perceive the trust responsibility as an obligation that gives tribal 
water and fishing rights any priority. Absent an acknowledgement that a 
trust duty is owed, protection of our rights takes a back seat to other 
projects, even new or newly proposed projects.
    The Title IV legislation, now H.R. 2444, at one time included 
specific language that would enable tribes to compact to perform 
programs, or portions of programs, that ``restore, maintain or preserve 
a resource (for example, fisheries, wildlife, water or minerals) in 
which an Indian tribe has a federally reserved right, as quantified by 
a Federal court.'' Proposed  405(b)(2) of H.R. 3994, 110th Cong. 1st 
Sess. Such language is important to our Tribe; it would resolve 
problems we face with Reclamation over the management of Trinity River 
programs. These problems include delays in executing contracts which 
result in a significant financial burden for the Tribe and 
administrative, programmatic and staffing nightmares for our programs.
    Another example involves realty. As previously mentioned, we 
compact realty and, this gives rise to another example of the need for 
compacting on a mandatory basis with agencies outside the BIA. We 
struggle with the underfunding of the realty program in general. We 
also struggle with the fact that surveys are done through the Bureau of 
Land Management with federal monies transferred from the BIA to the 
BLM. When we first compacted with BIA, the BIA would transfer monies 
allocated to it for surveys to the BLM where BLM would designate a BLM 
surveyor for surveys needed on the Reservation. BIA's position was 
that, technically, it did not have funding for surveyors since such 
monies were transferred to BLM. Now, there is one BLM position, 
identified as American Indian Surveyor, in each of the BIA Regions. 
With this, there is one such position in the BIA Pacific Region to 
serve 115 tribes. Not only is this inadequate for the workload, but the 
position does not do actual surveys. It reviews documents submitted in 
relation to fee-to-trust applications. Our realty functions are 
hindered due to the lack of funding for surveys and the inability to 
obtain adequate and timely surveys. We believe it would be helpful to 
compact directly with the BLM for survey activities. Further, more 
funding is required for such functions to be carried out effectively.
    Again, the trust responsibility is the trust responsibility of the 
United States and it is owed to tribes by all federal agencies. This 
must be put into practice to ensure proper management of trust 
resources. Tribes signed treaties with the Federal Government; their 
relationship is with the United States overall. We had no part in 
creating the structure of the Federal Government which is divided into 
several agencies. If an agency is part of the Federal Government, it 
must carry out the trust responsibility. There is no reason for a 
different policy to exist with respect to an agency that carries out a 
trust function just because it exists outside of the BIA. 
Significantly, for BIA programs to develop law enforcement, the 
presence of benefits to non-tribal members does not remove the program 
from mandatory compacting. Likewise, programs directed to restoring and 
protecting trust resources, such as Indian water rights or fisheries 
resources, should not be excluded from mandatory compacting simply 
because those programs are administered by non-BIA agencies.
    We believe the time has come for tribes to exercise their self-
governance in other areas and in a more expansive way. With this, we 
ask the Committee to focus on the non-BIA compacting issue as a means 
of furthering Self-Governance to where it needs to be, advancing the 
Federal-Tribal relationship to the next level and ensuring the United 
States fulfills its trust responsibility.
TITLE III of S. 1439, the Indian Trust Asset Management Demonstration 
        Act
    We also request that the Committee introduce Title III of the S. 
1439, the Indian Trust Reform Act of 2005. Hoopa worked with several 
tribes in the Northwest and the Committee staff to develop this 
proposal. It would further the objectives of tribal self-governance.
    Title III of S. 1439 would create the Indian Trust Asset Management 
Demonstration Project, which would allow tribes to develop and operate 
their own tribally-developed trust asset management plans and manage 
their assets in a manner different than the Secretary as long as the 
tribe's plan is consistent with tribal and federal law applicable to 
the trust assets, or the management of the assets, and the federal 
trust responsibility, and satisfies certain standards. We are already 
doing this with our forestry program, which is acknowledged nationally 
as a model program. Further, we were one of the Section 139 (131) 
tribes which would be grandfathered into the Demonstration Project 
under the terms of Title III of S. 1439. Title III encourages local 
decisionmaking and cooperation between tribal governments and the 
United States. It acknowledges that the United States' fulfillment of 
its trust responsibility does not require day-to-day management, but 
facilitation of tribal self-governance and self-sufficiency.
    We believe Title III would provide another useful model for tribes 
to exercise self-governance and self-determination, assist the United 
States with proper trust assets management, and create an 
understanding, on the part of the United States, of tribal values and 
expectations when managing trust assets within our territories. Self-
Governance plays an integral role in our management of our trust 
resources and assets. Yet, we believe that all tribal governments 
should be a part in the management of trust resources within their 
jurisdictions. Tribes' active participation in the management of trust 
assets creates beneficial results, advances the Federal-Tribal 
relationship and reduces chances of conflict between tribes and the 
United States. Enacting Title III would result in positive practices 
and trust management improvements. We support the concept of Title III 
of S. 1439 and would look forward to working with the Committee to 
enact such a provision.
Self-Governance with Other Agencies within the Department of Health and 
        Human Services
    The Department of Health and Human Services (DHHS) conducted a 
feasibility study in 2003 to examine the feasibility of including non-
Indian Health Service (IHS) agency programs within DHHS in a Self-
Governance demonstration project. Unfortunately, while the study set 
forth eleven programs that could be included in such a demonstration 
project little progress has been made since that time. Further, the 
tribal delegates in the Self-Governance Tribal-Federal Workgroup, which 
was created to work on how such non-IHS programs could be included in a 
self-governance demonstration project, are finding that the federal 
delegates are curbing the concept and encouraging tribes to use non-
ISDEAA models or to include self-governance language in reauthorization 
legislation for single programs. We believe programs of non-IHS 
agencies should be included in a demonstration project under the 
auspices and procedural protections of Title V.
Conclusion
    We appreciate the opportunity to submit our views for the record on 
this important topic. Self-Governance has been a success for the Hoopa 
Valley Tribe, admittedly through our own hard work. It has laid a 
foundation for tribal economic development, allowed us flexibility in 
carrying out our programs for our members, ensured flexibility in our 
management of our trust resources and has advanced our relationship 
with the Federal Government. Certain steps must be taken, however, to 
bring Self-Governance to the next stage and carry out the full effects 
intended when the law was passed decades ago.
    Thank you for your consideration, and please do not hesitate to 
contact us if you have questions or need additional information.
                                 ______
                                 
    Prepared Statement of Hon. Alvin Moyle, Chairman, Fallon Paiute 
                             Shoshone Tribe
    Honorable Chairman Akaka and Honorable Vice-Chairman Barrasso:
    We, the Fallon Paiute Shoshone Tribe come to you today as a Tribe 
united and hereby express the following:
    When Columbus reached the Americas there were hundreds of tribal 
nations. Each one of us had our own unique culture and way of 
governance. Five European governments crossed the ocean to claim our 
which they called the new world. New to them, but not new at all, this 
is our homelands . . . invaded.
    The European Nations had an unwritten Agreement with one another, 
that whatever land the nation claimed that Nation had the right to 
settle the land rights with the aboriginal inhabitants. The Agreement 
allowed each exploring nation to define its' relationship with the 
aboriginal people. That Agreement is the Doctrine of Discovery. The 
international root of federal Indian law, as we know it.
    For the first 250 years after Columbus arrived it was not clear 
which European country would win the power to colonize the land . . . 
our land. Although, treaties were sometimes negotiated with the Indians 
conflicts over the demand for land began a long pattern of removing 
Indians from their homelands creating tragic hardships and strained 
relationships between the settler and the original people.
    We, tribal communities, could not have even imagined how many 
problems the arrival of the Europeans would bring. The invisible 
invaders of disease, new wars, loss of land, the introduction of 
alcohol, the challenge still faces Indian Country today and our way of 
life.
    In 1763 the British issued a Royal Proclamation as an attempt to 
improve relations between the colonies and the original people. This 
was the first time that any European government used or coined the term 
``Indian Country'' and it described all the country west of the 
Appalachians essentially that was defined by a series of treaties 
negotiated by the British Crown with the individual Indian tribes; and 
that country was where the laws of the Indian applied. In fact, the 
Proclamation so says ``the laws of the Indian apply and the laws of 
Great Britain do not.'' If you went into Indian Country you were 
subject to the laws of the Indian tribe.
    The Proclamation of 1763 like a lot of laws probably did just the 
exact opposite of what it was intended to do. If it was intended to 
improve relationships between the colonies and the Indians it seemed to 
do just the opposite, because it along with other English enactments 
became the reason for the American Revolution. It in fact, prohibited 
colonists from going into Indian Country and trying to acquire Indian 
land or to speculate in Indian land . . . and that did not please the 
Colonists.
    Honorable Senate Committee on Indians affairs this was the 
beginning of the abuse the Native Americans have endured for centuries. 
The Government made us dependent on them and have had the trust 
responsibility, as it is now called, back then it was a guardian/ward 
relationship. Congress has the plenary power over Native Americans. We 
all know how the pendulum swings for the Native Americans . . . back 
and forth. The policies have been both harmful and helpful.
    We, the Fallon Paiute Shoshone Tribe, are very grateful for 
President Obama's Executive Order 13175 to respect the government-to-
government relationship we share. The feeling we have in Indian Country 
is not a feeling of loss, but a feeling of revival and an optimistic 
look towards the future.
    The Federal Government has maintained this guardian/ward (trust) 
responsibility.
    The times have changed, but some things are still the same for the 
Native Americans. We still have the insecurity of the rug being pulled 
out from under us, so to speak. Our funding, we depend on, is 
constantly in jeopardy, because we are seen as discretionary. The 
Native Americans are not discretionary and should NOT be seen as such.
    Native Americans have inherently had our own governments, as proven 
when the Colonists defeated the British in the American Revolutionary 
War and declared independence to form a new country in 1776. Ben 
Franklin and the other colonial leaders looked to the ``Great Law of 
Peace'' of the Iroquois Confederacy for ideas on how to set-up a union 
among state sovereigns balancing power in government.
    The Merriam Report informed Congress of the deplorable conditions 
the original people were now faced with, yet nothing was done.
    Again the feeling in Indian Country is not a feeling of loss, but a 
feeling of revival and an optimistic look towards the future.
    We have formed the National Congress of Americans Indians and 
believe the two Congress' need to work hand in hand in consultation. 
Due to our limited tribal budgets travel is not an option, for some of 
us. We are all members of the National Congress of American Indians and 
they are our voice on all of the issues we, the Fallon Paiute Shoshone 
Tribe face:

        1. Budget
        2. Land
        3. Water
        4. Education
        5. Economic Development
        6. Law Enforcement

    We are not discretionary and request that we NOT be seen as such. 
The National Congress of American Indians has submitted the Indian 
Budget and the Fallon Paiute Shoshone Tribe fully supports it and 
submits a copy with our Statement.
    During Tribal Unity Impact Week we, the Fallon Paiute Shoshone 
Tribe, are calling on members of Congress to stand with Indian Country 
in support of:

  <bullet> LAND RESTORATION--The Department of the Interior's authority 
        to restore land into trust for Indian tribes is under attack. 
        The Supreme Court's decision in Carcieri v. Salazar was the 
        first broad stroke challenging DOI's land into trust authority 
        by reinterpreting the language of the Indian Reorganization Act 
        of 1934. Recently, the Supreme Court's decision in Match-E-Be-
        Nash-She-Wish Band v. Patchak held that the Quiet Title Act 
        does not protect Indian lands held in trust, and any 
        disgruntled neighbor may retroactively challenge the trust 
        status of tribal lands. We must urge Congress to restore and 
        protect DOl's authority to take land into trust for all 
        federally recognized Indian tribes.

  <bullet> PROTECT NATIVE WOMEN--Urge Congress to stand with tribal 
        nations to halt the epidemic of violence against women in 
        tribal communities. Congress has come to a decision point on 
        the reauthorization of the Violence Against Women Act (VAWA). 
        The Senate bill, S. 1925, contains Section 904, which would 
        restore tribal jurisdiction over non-Indians for certain crimes 
        of domestic violence and dating violence committed in Indian 
        country. Section 904 is broadly supported by Indian tribes 
        across the country; however, the House version, H.R. 4970, does 
        not include the tribal criminal jurisdiction provisions, and 
        some members of Congress have stated objections to it along 
        with other sections of the legislation. Now is the time for 
        tribes to urge Congress to pass a VAWA reauthorization right 
        away that keeps the key tribal provisions intact!

  <bullet> EMERGENCY RESPONSE ACTION--Congress should pass legislation 
        to provide Indian tribes the authority to submit direct 
        requests for a federal emergency or disaster declaration. Both 
        S. 2283 and H.R. 2903 seek to amend the ``Stafford'' Act to 
        provide Indian tribes the authority to submit direct requests 
        to the President for a federal emergency or disaster 
        declaration. Currently, tribes must request a declaration 
        through the office of the state governor. The amendments are 
        critical tools to equip tribal governments to act swiftly to 
        protect their people and homelands during emergencies.

  <bullet> THE INDIAN BUDGET--The federal trust responsibility is not a 
        line item. Congress will soon debate how to avoid the ``fiscal 
        cliff,'' the term for a series of deadlines at the end of 2012 
        when tax cuts expire and automatic spending cuts--or 
        sequestration--will take effect. Experts warn if Congress does 
        nothing, it could lead to another recession. But any deal that 
        makes more harmful cuts to Indian programs also threatens the 
        health and welfare of Indian people. Under the Budget Control 
        Act, most federal programs face a destructive across-the-board 
        cut in January 2013 if Congress fails to enact a plan before 
        then to reduce the national debt by $1.2 trillion. The federal 
        trust obligation to Indian tribes must be honored and vital 
        tribal programs must be sustained in any deal to reduce the 
        national debt. Please join tribal leaders and advocates in 
        supporting the Indian budget for 2013 and beyond.

  <bullet> CONFIRMATION OF THE ASSISTANT SECRETARY FOR INDIAN AFFAIRS--
        Dean Kevin Washburn of the University of New Mexico Law School 
        has been nominated to be the Assistant Secretary for Indian 
        Affairs. Tribes are urging the Senate to take quick action to 
        confirm this nomination because of vacancies at the Bureau of 
        Indian Affairs that threaten to create a leadership void. The 
        Assistant Secretary is the senior decision maker on important 
        issues of public safety on Indian reservations across the 
        country. The leader of the BIA is frequently faced with 
        decisions that directly affect human lives, and the position 
        should not be left unfilled for a period of many months until 
        after the next election. Dean Washburn is well-qualified to 
        serve as Assistant Secretary. He is a former federal 
        prosecutor, a pre-eminent scholar on law enforcement in Indian 
        country, and has management experience.

    Again the feeling in Indian Country is not a feeling of loss, but a 
feeling of revival and an optimistic look towards the future.
    Honorable Chairman Akaka and Vice-Chairman Barrasso, we thank you 
for the opportunity to speak with you on the importance of our 
government to government relationship and to work together for our 
betterment and survival in a good way. We, the original people, have 
always had the utmost respect for our Mother Earth and she now cries 
for all of the pain the Colonists have caused.
    We ask that the Indian Budget not be considered discretionary.

                                  <all>

</pre></body></html>
